       The Inspector General of the Department of Defense Emblem

The official emblem of the Office of Inspector General Department of Defense portrays the DoD eagle
bearing the shield of the United States on its breast and holding in its beak a white (Argent) motto scroll
doubled scarlet and inscribed with the words “Integrity” and “Efficiency,” also scarlet, grasping in its talons
a perch formed by three arrows, which are bound together with scarlet bands and held tightly in the talons of
the eagle, atop a two-headed axe with gold fasces, bound with scarlet bands, between two gold torches
enflamed all gold, all between two green branches, olive to sinister and laurel to dexter, conjoined in base by
a stylized granite foundation block inscribed “Sub Tutela Altissimi Semper,” all upon a light blue disc within
a white collar edged gold on the outside with the inscription “Inspector General” above and “Department of
Defense” below between, at either side two stars, all dark blue.




     Official DoD Seal
                                                                                       Old OIG Emblem
                                             New OIG Emblem
                                        Approved September 11, 2002

The American bald eagle and shield, the rays and stars above the eagle, the laurel and olive branches, and the
light and dark blue colors are adapted from the seal of the Department of Defense, which suggests the
traditional role of a military Inspector General as “an extension of the eyes, ears, and conscience of the
Commander.” The American bald eagle, long associated with symbolism representing the United States of
America and its military establishment, was selected for the Department as an emblem of strength. The eagle
is defending the United States, represented by the shield of thirteen pieces. The thirteen pieces are joined
together by the blue chief, representing the Congress. The rays and stars above the eagle represent the
original thirteen states, as do the bars of the American shield. The torches shedding light to either side and
the fasces, an ancient symbol of authority, suggest the missions of promoting “economy, efficiency, and
effectiveness in the administration of,” and preventing and detecting “fraud and abuse in,” the programs and
operations of the Department of Defense. The binding together of the three arrows in the talons of the eagle,
which on the DOD seal symbolize the three separate military departments, symbolize the Inspector General’s
statutory duty to “give particular regard to the activities of the internal audit, inspection, and investigative
units of the military departments with a view toward avoiding duplication and insuring effective coordination
and cooperation.” The inscribed stone base denotes the historical foundation of the American Inspector
General system and refers to George Washington’s first effective Inspector General, Baron Friedrich
Wilhelm von Steuben, and depicts his family motto, which translates to “Always under the protection of the
Almighty.” The motto scroll inscribed “Integrity” and “Efficiency” denotes the modern statutory qualities,
exemplified in the “President’s Council on Integrity and Efficiency,” and represents these qualities
respectively in the colors white (Argent) and crimson.
                                         FOREWORD

         Having completed my first six months as Inspector General, I am pleased to report that a
profound cultural transformation is underway not only in the Department of Defense (DoD) but
also in the Office of Inspector General of the Department of Defense.

        On September 10, 2001, Secretary Rumsfeld delivered an address at the DoD Acquisition
and Logistics Excellence Week Kickoff in which he described an adversary that "poses a threat . . .
to the security of the United States of America." Secretary Rumsfeld challenged the Department
“to wage an all-out campaign to shift the Pentagon’s resources from bureaucracy to the battlefield,
from tail to tooth.” While calling on the Department to transform the way it conducts business, the
Secretary of Defense made it clear that his focus was "[n]ot the people, but the process. Not the
civilians, but the systems. Not the men and women in uniform, but the uniformity of thought and
action that we too often impose on them." While the horrific events of the next day have served to
heighten our awareness of the importance of streamlining the processes to support the warfighters,
it has not derailed the other process; the concurrent battle to streamline bureaucracy wages on.

         In the tradition of what Army Inspectors General call the "Von Steuben Model," named
after the American military's first effective "Inspector General," upon Senate confirmation I
undertook immediate efforts to transform the Office of the Inspector General into a paradigm for
the Secretary’s “Bureaucracy to the Battlefield” initiative -- so that, having transformed my own
organization, I could more effectively make contributions to the Secretary of Defense's broader
efforts to combat fraud, waste, and abuse throughout the Department of Defense.

        At the beginning of my tenure, I commissioned a bottom-to-top assessment of the Office of
Inspector General to get an unvarnished picture of the fitness of this Office for deployment in the
ongoing “campaign to shift the Pentagon’s resources from bureaucracy to the battlefield.” The
independent assessment team's report is complete and is available on our website. After studying
the independent assessment report and in light of guidance from both the Secretary of Defense and
Congress, I have undertaken an internal transformation consonant with Secretary Rumsfeld's call
to “transform not just the way we deter and defend, but the way we conduct our daily business.” As
this Semiannual Report to Congress is being produced, that transformation is fully underway.

        In the end, I envision the Office of Inspector General, simply stated, as the paradigm for the
leaner, more agile fighting force it purports to support.
This page left blank intentionally
Semiannual Report to the Congress                                                                                                Table of Contents




                                                TABLE OF CONTENTS
                                                                                                          Page
CHAPTER ONE - SIGNIFICANT ACTIVITIES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
      Criminal Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             1
      Terrorism . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     2
      Criminal Investigative Policy and Oversight. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         14
      Voluntary Disclosure Program. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  15
      Administrative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                15
      Auditing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   19
      Information Technology Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          20
      Information Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           20
      Acquisition. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     21
      Chemical and Biological Defense . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    22
      Quality Assurance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          23
      Cooperative Threat Reduction Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         23
      Web Site Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              23
      Significant Open Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       24
      OIG DoD Testimony . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              25
      Intelligence Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          25


CHAPTER TWO - OFFICE OF THE INSPECTOR GENERAL
TRANSFORMATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     27


APPENDICES
      A. OIG Indicators of Potential Terrorist Threats . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             31
      B. Reports Issued by Central DoD Internal Audit Organizations . . . . . . . . . . . . . . . . . . . .                                          37
      C. OIG DoD Audit Reports Issued Containing Quantifiable Potential
         Monetary Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               47
      D. Followup Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               49
      E. Contract Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     51


FIGURES
      1.     Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      3
      2.     DoD Total Senior Official Cases - FY 99 - FY 02. . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              18
      3.     Nature of Substantiated Allegations Against Senior
             Officials During 2nd Half FY 02 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   18


                                                                            i
Table of Contents                                        Semiannual Report to the Congress




                    This page left blank intentionally




                                  ii
Semiannual Report to the Congress                                                         Chapter One




CHAPTER ONE – SIGNIFICANT ACTIVITIES

INTRODUCTION                The President’s Management Agenda (PMA) provides a “results-
                            oriented” strategy for improving the management and performance of the
                            federal government. The Agenda targets the following five critical areas
                            for improvement:

                                    •   Strategic Management of Human Capital;

                                    •   Competitive Sourcing;

                                    •   Improved Financial Performance;

                                    •   Expanded Electronic Government; and

                                    •   Budget and Performance Integration.

                            A key challenge to the Department of Defense (DoD) is the need to
                            establish appropriate measures and milestones, also known as “metrics,”
                            that will provide DoD leadership with the key information necessary to
                            track progress and make sound decisions in the business of national
                            defense.

                            The Office of Management and Budget (OMB) rates each of the above
                            areas for improvement as green, yellow, or red, depending upon
                            measurable improvements. In the October 2001 baseline score card, the
                            Department was rated red or unfavorable for all five critical areas. In its
                            fiscal year 2003 Mid-Session Review, the OMB recognized the
                            Department’s progress in Strategic Management in Human Capital;
                            Improved Financial Performance; and Expanded Electronic Government,
                            and assigned ratings of green. The OMB rated DoD’s improvements in
                            Competitive Sourcing and Budget and Performance Integration yellow for
                            making progress.

                            The Office of the Inspector General of the Department of Defense (OIG
                            DoD) and audit agencies of the Military Departments contribute to the
                            Department’s implementation of the President’s Management Agenda by
                            examining operations and identifying improvements that can assist the
                            Department in achieving success for the initiatives.

CRIMINAL                    The four Defense Criminal Investigative Organizations (DCIOs) continue
INVESTIGATIONS              to combat crime affecting the DoD. The Defense Criminal Investigative

                                                    1
Chapter One                                            Semiannual Report to the Congress




              Service (DCIS) focuses on procurement fraud, health care fraud,
              computer crimes, major thefts, and significant crimes impacting Defense
              Agencies. The U.S. Army Criminal Investigation Command, the Naval
              Criminal Investigative Service (NCIS), and the Air Force Office of
              Special Investigations (AFOSI) also investigate procurement fraud, but
              focus mostly on crimes against persons and property within their
              respective Military Departments, as well as force protection. The AFOSI
              and NCIS also conduct counterintelligence investigations and operations.
              The DCIOs have also been supporting anti-terrorism investigations and
              participating as members of Joint Terrorism Task Forces. The DCIOs
              work cooperatively to solve cases involving more than one Service.

              Monetary recoveries and fines related to all criminal investigations
              throughout the Department of Defense totaled more than $79 million.
              Figure 1 (page 3) displays other statistical results achieved by the four
              investigative organizations during the semiannual reporting period. The
              following are examples of significant fraud cases.

TERRORISM     Presidential Decision Directive 39 (PDD 39) states “it is the policy of the
              United States to deter, defeat, and respond vigorously to all terrorist
              attacks on our territory and against our citizens, or facilities….”

              After the tragic events of September 11, 2001, the Office of the Inspector
              General of the Department of Defense (OIG DoD) moved to enhance law
              enforcement efforts in the prevention of terrorist attacks. Defense
              Criminal Investigative Service (DCIS) special agents are working at Joint
              Terrorism Task Force (JTTF) locations, in addition to doing their tradi-
              tional work of ensuring our warfighters have the best and safest equip-
              ment to accomplish their missions. Currently, 19 DCIS agents are
              assigned full time to JTTFs in 19 different locations. Another 60 agents
              are assigned part-time or as needed to support the 56 JTTFs around the
              country.

              Through a combined effort of the OIG DoD, the Defense Criminal
              Investigative Organizations, and other DoD Components, and coordi-
              nation with the FBI Counter-terrorism Unit, the OIG DoD developed a list
              of Potential Indicators of Terrorist Threats. The brochure is being distri-
              buted to the DoD investigative and law enforcement community, but the
              information is also useful to everyone and reminds us to be alert to
              potential threats and to report them to appropriate authorities. The
              brochure is included as Appendix A of this report and has been posted to
              the internet: http://www.dodig.osd.mil/PressReleaes/Brochure-
              BiFold.pdf.

                                    2
Semiannual Report to the Congress                                                                 Chapter One




                 Judicial and Administrative Actions
                               300                            262
                                            235
                               250
                               200
                                                              156
                               150          176

                               100
                                                              106            46
                                    50                                                   36
                                             59
                                     0                                   Debarments Suspensions
                                         Convictions       Indictments
                Other                       176               156
                Procurement/Health                                           46          36
                                             59               106
                Care Fraud



                                                  Figure 1


                            The OIG Defense Hotline has designed and procured posters and business
                            cards that identify the DoD Hotline as a vehicle for individuals to report
                            instances of threats to homeland security and unauthorized disclosures of
                            classified information. To better assume this mission, the Hotline staff
                            received intelligence-specific training from subject matter experts from
                            within and outside the DoD. Several members of the Hotline staff have
                            coordinated with Federal agencies outside the DoD to properly manage
                            information obtained through one of the Hotline mediums.

                            A former civilian contract employee with the U.S. Army at Fort
                            Monmouth, New Jersey, was sentenced to 210 months in prison, 36
                            months of supervised release, and ordered to pay a $300 special assess-
                            ment for violating the Federal Firearms Act and fraudulently using a
                            social security number. The former employee, using fraudulent identifica-
                            tion, purchased semi-automatic handguns in Virginia, Tennessee, and
                            West Virginia. He also sent fictitious faxes threatening terrorist attacks on
                            Fort Monmouth, a municipal court judge, and a number of local police
                            officers. The sentencing judge found that the employee’s activity consti-
                            tuted an act of terrorism that warranted long-term incarceration.

                                                       3
Chapter One                                                 Semiannual Report to the Congress




 Financial Crimes   Offenses considered to be financial crimes generally involve contract
                    mischarging or defrauding DoD pay systems.

                    A major Defense contractor in Falls Church, Virginia, agreed to a civil
                    settlement and paid the government $530,000 to settle claims that it
                    overcharged the DoD. Between October 1, 1998 and November 19, 2001,
                    the contractor billed the National Imagery and Mapping Agency (NIMA),
                    Bethesda, Maryland, for information technology services it provided to
                    NIMA under contract. An investigation revealed that approximately 23
                    employees working on the contract did not meet the minimum qualifica-
                    tions for their positions. Consequently, the contractor charged and billed
                    NIMA a higher hourly rate for the employees than was allowed.

                    A Defense contractor paid $310,000 in damages as part of a civil settle-
                    ment agreement with the government. In addition, the contractor agreed to
                    remedy potential areas of ordnance and explosive contamination identi-
                    fied by the government’s investigation relating to a contract for the
                    removal of ordnance and explosives from land at Bellows Air Force
                    Station (BAFS), Waimanalo, Hawaii. It was alleged that the contractor
                    failed to properly clear the ordnance and explosives, and improperly used
                    heavy equipment for grading purposes. An investigation determined that
                    heavy equipment was used extensively throughout the BAFS site to grade
                    areas before the use of metal detection equipment by contractor personnel.
                    This compromised areas of the project by burying the ordnance and
                    explosives beneath the clearance depth specified in the contract.

                    A home health care worker in Fredericksburg, Virginia, pled guilty to a
                    single count of theft of government funds and was sentenced to 5 years
                    probation and ordered to pay $19,553 restitution and a $100 special
                    assessment fee. An investigation revealed the individual completed and
                    submitted multiple fraudulent Certificates of Eligibility for Government
                    Annuity payments originally payable to her deceased mother, a bene-
                    ficiary of a Military Service member. The Defense Finance and
                    Accounting Service Operation Mongoose, which is designed to detect
                    ineligible beneficiaries of government funds, provided the initial fraud
                    alert.

                    An administrative assistant with the Pentagon Force Protection Agency
                    (PFPA), the civilian police force at the Pentagon, pled guilty to making a
                    false claim to the government and was sentenced to 36 months supervised
                    probation and ordered to pay full restitution of $40,123. From January
                    1997 through December 2000, this employee claimed compensation
                    totaling $41,123.81 for overtime hours she did not work. The employee

                                          4
Semiannual Report to the Congress                                                             Chapter One




                            would project overtime and weekend hours to work in advance of the pay
                            period, submit the hours to the PFPA Records and Compensation Section,
                            not work the projected overtime, and improperly collect the overtime pay.

                            A major defense contractor in Florida paid $343,500 in a civil settlement
                            to resolve a former employee’s claim that the contractor supplied the Air
                            Force with 30 Automated Depot Inertial Navigation Test Set Stations that
                            did not comply with contract specifications. The contractor substituted
                            non-approved parts, falsified test and inspection reports, and mischarged
                            direct costs. The former employee had filed a qui tam and received
                            $68,700 of the settlement.

                            Information contained in a voluntary disclosure led to an investigation of
                            mischarging on DoD contracts by a Top 100 defense contractor. The
                            contractor purchased a company that charged costs related to firm fixed
                            price contracts to Independent Research and Development, resulting in
                            additional subsidy from the government. The contractor agreed to pay the
                            United States $2.8 million to settle its civil liability.

                            A Seattle shipyards company employee was sentenced to 6 months
                            confinement with 3 years probation and ordered to pay $147,000 in
                            restitution after pleading guilty in U.S. District Court to filing false claims
                            against the Department of Defense. The employee created a bogus
                            company and then submitted five purchase orders for work not performed.
                            Investigators discovered that the account number on the back of the
                            checks payable to the bogus company was the same as that of the
                            employee’s personal bank account.

                            Two civilian employees assigned to an Army military medical center in
                            Texas, who are also retired military officers, pled guilty in Federal
                            District Court to conflict of interest and conspiracy charges. The
                            employees shared a limited partnership with a medical contracting firm
                            and received kickbacks after requesting $505,626 worth of medical
                            supplies through a sole source contract with the firm. Both employees
                            were ordered to pay $36,035 each in restitution and sentenced to 3 years
                            probation.

                            Two civilian employees and the owner of a distributing company pled
                            guilty in Federal District Court to theft, conspiracy, receiving kickbacks,
                            and bribery charges. One of the civilian employees agreed to purchase
                            tools and other items from the contractor. The employee would alter the
                            quoted price on the legitimate Bill of Materials or prepare a fraudulent
                            Bill of Materials and then make the purchases using his government

                                                   5
Chapter One                                               Semiannual Report to the Congress




                 purchase card. The second employee received approximately $3,000 in
                 bribes in exchange for suggesting the company as a source of supply. The
                 company owner paid $50,000 in restitution as a result of a plea bargain
                 and was sentenced to 3 years probation to include 4 months home
                 confinement and 100 hours of community service. The employee who
                 placed the contracts was sentenced to 3 years probation, 4 months home
                 confinement, fined $5,000, ordered to perform 100 hours of community
                 service, and forbidden to apply for credit during the next 3 years.
                 Sentencing of the second employee is pending.

 Government      The Military Criminal Investigative Organizations (MCIOs) continue
 Purchase Card   their investigations into the illegal use and misuse of government issued
 Crimes          purchase and travel cards.

                 A Navy enlisted person was found guilty at a general court-martial of five
                 specifications of stealing. The member used his government issued
                 purchase card for personal transactions to include the purchase of an
                 airline ticket to Puerto Rico, hotel rooms, rental cars, and car towing
                 services for his personal vehicle. Sentencing included a reduction in rank,
                 a $5000 fine, 1-year confinement, and a Bad Conduct Discharge. Pursuant
                 to a pre-trial agreement, the member will pay $5,900 in restitution in lieu
                 of a fine and serve only 60 days confinement. Total loss to the govern-
                 ment was $32,723.

                 A Navy Petty Officer Second Class, who was the government purchase
                 cardholder for his command’s supply office pled guilty at a general court-
                 martial to theft of government property by illegal use of a government
                 purchase card. He was sentenced to 2 years confinement, fined $12,000
                 and awarded a Bad Conduct Discharge. Total loss to the government was
                 $81,000.

                 A Navy enlisted person was sentenced by court-martial to 24 months
                 confinement, reduced in pay grade, and given a Bad Conduct Discharge
                 for theft of government property. The military member used credit cards
                 assigned to a maintenance activity to purchase $71,000 worth of property
                 that he distributed to civilian and military personnel.

 Medical Fraud   Efforts to combat fraud against TRICARE and other government health
                 care programs resulted in many successes during this 6-month period. The
                 following sample cases were jointly investigated by multiple federal law
                 enforcement agencies, and the recovered amounts will be apportioned
                 among the agencies’ programs that were victimized, including the DoD.


                                       6
Semiannual Report to the Congress                                                           Chapter One




                            A dentist from Freehold, New Jersey, pled guilty to health care fraud and
                            income tax evasion and was sentenced to 27 months in prison, 3 years
                            probation, and restitution of $264,363, in July 2002. Since early 1994, the
                            dentist routinely billed the DoD TRICARE program and private dental
                            insurance programs for services he did not provide. To conceal this, he
                            made false notes in patients’ files and falsely reported patients’ addresses
                            to insurance providers, thereby causing the dental explanation of benefits
                            forms to be diverted to him.

                            Two former owners of a blood testing laboratory in Carmel, Indiana, pled
                            guilty to health care fraud, mail fraud, and conspiracy and were sentenced
                            to 23 and 29 months confinement respectively, 3 years supervised release,
                            and each was ordered to pay $2 million in restitution and a $100,000 fine
                            for submitting false claims to government health benefits programs,
                            including TRICARE. The false claims included billing for tests that were
                            not medically necessary and not ordered by doctors, and billing patients
                            who were not seen by doctors.

                            A major pharmacy agreed to a $9 million civil settlement to resolve
                            allegations of making false claims, receiving unjust enrichment, and
                            breach of contract with respect to payment of prescription medication
                            claims to the TRICARE, Medicaid, and Federal Employees Health
                            Benefits Programs. An investigation was initiated based on allegations
                            that the pharmacy defrauded the government by filing false claims for
                            prescription payments. The investigation identified numerous instances in
                            which the pharmacy was unable to completely fill the prescription
                            presented by the patient, and the patient was instructed to return at a later
                            date for the balance. When a patient did not return for the balance, the
                            prescription drug was returned to stock or resold to other customers;
                            however, the pharmacy did not credit the government program account
                            for the cost of the portion not provided to the patient.

                            A health care facility in Sacramento, California, entered into an $8.5
                            million settlement agreement with the Department of Justice as a result of
                            a qui tam civil lawsuit. It was alleged the facility defrauded the DoD
                            TRICARE program and Medicare program by filing false cost reports for
                            fiscal years 1991 through 1999. One of the aspects of the fraud was the
                            inclusion of unallowed square footage of unused hospital space in its
                            annual cost reports submitted to the government.

                            A physician was convicted of 33 counts of health care fraud, 7 counts of
                            mail fraud and 3 counts of perjury and was sentenced in U.S. District
                            Court, Kansas City, Kansas, to 72 months incarceration, 36 months of

                                                   7
Chapter One                                              Semiannual Report to the Congress




                supervised probation on release and ordered to pay a $4,300 special
                assessment. The physician also agreed to a 15-year exclusion from Medi-
                care, TRICARE, Medicaid, and all Federal health benefits programs.
                Testimony at trial established that the physician defrauded Federal and
                private health care benefits programs and illegally enriched himself by
                submitting false claims for services. The scheme to defraud included
                subjecting TRICARE patients and others to unnecessary surgery, billing
                for multiple complex surgical procedures he did not perform, and falsi-
                fying tests to justify unnecessary surgeries.

                A dialysis service agreed to pay a civil settlement of $1,658,923 to settle
                allegations of fraud. An investigation disclosed that the dialysis service
                billed Federal health care programs, including TRICARE, for Epogen
                (EPO). The dialysis service received EPO free of charge for use in a
                clinical study approved by the Food and Drug Administration.

 Product        Counterfeit materials, and other forms of unauthorized substitution of
 Substitution   products into DoD inventories, are one of our highest priorities for deter-
                rence, investigation and prosecution.

                A Defense contractor in Newington, Connecticut, reached a $150,000
                settlement with the Department of Justice to settle issues raised in a qui
                tam suit. The suit alleged that the contractor knowingly falsified test
                documents pertaining to aerospace parts, including parts used in military
                aircraft. The scheme involved balancing operations that were to be
                performed by a certified balancing operator. When the in-house certified
                inspector was disabled due to injury, the contractor continued to certify
                parts by using a balancing trainee. Test documents were then prepared
                using the inspection stamp of the injured certified balancer.

                The president of an aviation company in Fort Lauderdale, Florida, was
                sentenced to 12 months confinement, 24 months probation, restitution of
                $19,100, a $10,000 fine, and a $100 special assessment fee. The president
                pled guilty to one count of fraud involving aircraft or space vehicle parts,
                covered by a newly enacted law. The law was specifically enacted to
                combat the dangers posed by the installation of defective parts in civil,
                public, and military aircraft. It contains enhanced criminal penalties. This
                is the first time a DoD contractor was successfully prosecuted under this
                law. The president certified repairs by using the Federal Aviation Admin-
                istration license number of a company in Farmingdale, New York,
                knowing that his company was not approved to repair any aircraft part.
                The investigation further determined the president certified that printed


                                      8
Semiannual Report to the Congress                                                           Chapter One




                            circuit boards were replaced when a subsequent report disclosed that the
                            original printed circuit boards were still being used.

                            The former president of a manufacturing company in Ronkonkoma, New
                            York, was sentenced to 2 years probation and a $100 special assessment
                            fee. In addition, the company was sentenced to 2 years probation, a $400
                            special assessment fee, and a $31,199 fine. The president and company
                            pled guilty to one count of mail fraud. The company manufactures various
                            aircraft components for the DoD and the commercial aircraft industry,
                            including critical products for the F-14, F-15, and F-16 fighter aircraft. An
                            investigation disclosed that the president falsely certified that aircraft
                            components passed dimensional inspection requirements when, in fact,
                            such products were not inspected or had failed inspection. These parts
                            were also sold to commercial aircraft companies.

                            A manufacturing company in Tulsa, Oklahoma, was sentenced to 5 years
                            probation and ordered to pay $251,722 in fines, $68,048 in restitution, and
                            an $800 special assessment fee. The company pled guilty to two counts of
                            making false statements to the government. The charges resulted from the
                            production of nonconforming spoiler-actuator attachment fittings for the
                            Teledyne Ryan Aerospace Tier II+ Global Hawk, an unmanned recon-
                            naissance aircraft. The company also produced nonconforming battery
                            guides for operational use in the Space Station.

 Environmental              Investigations in this area address matters such as the removal, transport,
 Crimes                     and disposal of hazardous material from DoD installations and
                            contractors.

                            The owner of a hazardous waste disposal company in Kansas City,
                            Kansas, pled guilty to making a false statement and was sentenced to 3
                            years probation, ordered to pay a $2,500 fine, and assessed a $100 special
                            assessment fee. The disposal company, a DoD subcontractor, stored
                            hazardous waste without a permit. The owner misrepresented this fact to
                            the Environmental Protection Agency.

                            The owner of an erosion control company pled guilty to 16 counts of
                            making false claims to the State of Oklahoma and was sentenced to serve
                            60 days in the county jail, to pay $350 per month restitution for 27 years,
                            and received a 32-year suspended sentence. In conjunction with a U.S.
                            Army Corps of Engineers project, the company installed river erosion
                            control devices using a mattress of waste tires. An investigation deter-
                            mined that the owner falsified the number of waste tires on the manifests
                            he submitted.

                                                   9
Chapter One                                             Semiannual Report to the Congress




               The owner of a non-hazardous waste disposal company and the company
               pled guilty to making false statements under the Clean Water Act. The
               company was sentenced to 5 years probation, a $400 special assessment,
               and ordered to pay restitution of $871,366. The president was sentenced
               to 9 months home detention, 1 year probation, and ordered to pay a
               $10,000 fine and a $100 special assessment. The company and president
               admitted submitting false Industrial Wastes Discharge Self Monitoring
               and Certification Forms for wastewater discharged into a U.S. Army
               Corps of Engineers managed waterway.

               An asbestos removal company, its president and vice-president pled guilty
               to making false statements and possessing false documents in connection
               with DoD and other government contracts. The company was sentenced
               to 1 year probation, a $100,000 fine, and ordered to pay $30,000 restitu-
               tion and an $800 special assessment. The president and vice-president
               were each sentenced to l year probation, 6 months home confinement,
               ordered to each pay a $50,000 fine and a $200 special assessment fee. The
               investigation was based on information that the company obtained false
               asbestos training certifications for some of their employees and used those
               certifications to obtain licenses from the Virginia Department of Profes-
               sional and Occupational Regulations. The company then submitted the
               false training certifications and licenses as part of their proposals on
               contracts with the DoD Pentagon Renovation Project and the District of
               Columbia Public Schools Asbestos Abatement Response Action for the
               U.S. Army Corps of Engineers.

               A California portable services Navy contractor was sentenced to 3 years
               probation, fined $100,000, and ordered to pay $10,220 in restitution to the
               City of San Diego Metropolitan Wastewater Department for illegally
               dumping grease and septic waste at various San Diego County locations.
               This investigation was prompted by information received through the San
               Diego Environmental Task Force. According to the terms of a plea agree-
               ment, the company is prohibited from contracting with the government
               until the Environmental Protection Agency determines that conditions
               that caused the illegal activity have been corrected.

 Bribery and   The Anti-Kickback Act of 1986 addresses government employees and
 Kickbacks     contractors who engage in bribery and kickbacks in exchange for govern-
               ment contracts and subcontracts.

               The former manager of a DoD contractor in Tacoma, Washington, pled
               guilty to accepting kickbacks and was sentenced to 1 month incarceration,
               5 months home confinement, 3 years probation, $50,000 restitution and a

                                     10
Semiannual Report to the Congress                                                         Chapter One




                            $100 special assessment. An investigation disclosed that from May 1997
                            through December 1998, the manager, a prime contractor employee,
                            accepted kickbacks totaling $50,000 from a subcontractor. In return for
                            the kickbacks, the subcontractor received favorable treatment in the award
                            of government subcontracts from the prime contractor.

                            The two owners of a subcontractor in Chalmette, Louisiana, pled guilty to
                            providing kickbacks and were sentenced to 6 months in a halfway house,
                            5 years probation, ordered to pay $60,000 restitution to the Navy Military
                            Sealift Command, and a $200 special assessment fee for violating the
                            Anti-Kickback Act. The owners paid kickbacks to the employee of a
                            government prime contractor in exchange for favorable treatment in the
                            awarding of subcontracts for repair work aboard U.S. naval ships.

 Theft                      Theft of DoD material and munitions from the supply system and at the
                            base level has a direct effect on the military operational readiness.
                            Another vulnerability is theft of funds and property using government
                            charge cards.

                            A contractor from Mapleville, Rhode Island, agreed to pay $12,100,890
                            as part of a civil settlement resulting from the theft of precious metals
                            being recovered under DoD contracts. Additionally, several key officers
                            of the company were convicted of conspiracy and false statements and
                            were sentenced to varying lengths of confinement, and all were ordered to
                            pay substantial fines. Various schemes were devised that resulted in the
                            theft of precious metals from a DoD contractor and its commercial cus-
                            tomers. Diversion of these metals generated cash that was used, in part, to
                            pay kickbacks to a DoD contractor employee. The kickbacks were made
                            in return for favorable settlements relative to the processing of precious
                            metals scrap.

                            The owner of a Federal Aviation Administration certified repair station in
                            Millington, Tennessee, pled guilty to wire fraud and money laundering
                            and was sentenced to 6 months in prison, followed by 6 months house
                            arrest, 3 years supervised release, and a forfeiture of $165,108. An inves-
                            tigation disclosed that this individual fraudulently obtained DoD property,
                            including aircraft and aircraft parts and components, and converted the
                            property to his own use. He fraudulently represented that the property
                            would be used by State and local law enforcement agencies. Acting on
                            behalf of the Mississippi County Sheriff’s Department (MCSD), Osceola,
                            Arkansas, he obtained helicopters and helicopter spare parts in excess of
                            those needed to maintain and operate the MCSD’s helicopter. He subse-
                            quently sold some of the parts for his personal benefit.

                                                  11
Chapter One                                                 Semiannual Report to the Congress




                   A former quality assurance representative (QAR) for the Defense
                   Contract Management Agency, Pittsburgh, Pennsylvania, pled guilty to
                   making false claims against the government and was sentenced to 63
                   months incarceration, 3 years supervised release, ordered to pay
                   $1,553,320 to the Department of the Army along with a $900 special
                   assessment fee. The false claims relate to a contract between a prime
                   contactor and the U.S. Army for the disposal of military munitions fuses
                   through demilitarization. The QAR entered into an agreement with
                   various contractor officials to accept the false certifications to allow the
                   contractor to be paid for the certification work when the QAR knew the
                   fuses had not been demilitarized. The prime contractor subsequently
                   submitted false claims to the DoD based on the false certifications and
                   was paid approximately $346,630. It will cost the Army an estimated $1.5
                   million to make these fuses safe.

                   A former director of the Defense Automated Printing Service, New
                   Orleans, Louisiana, was sentenced to 30 months confinement, 3 years
                   supervised release, restitution of $581,997 and a $100 special assessment
                   fee for theft of government funds. The former director used his privately
                   owned business to make $310,410 in fraudulent charges to government
                   charge cards held by his subordinates. In addition, he embezzled $271,587
                   in government funds by allowing other businesses to make fictitious
                   charges to the government charge cards and then dividing the proceeds
                   with him.

                   An individual from California was sentenced to 27 months confinement,
                   24 months supervised release and a special assessment of $100 for his role
                   in the attempted theft of $1.6 million in gold from a Massachusetts
                   company. An individual who identified himself as a DoD employee
                   contacted a manufacturer of precious metals in order to purchase gold for
                   use on the space shuttle. The individual provided the manufacturer with
                   documents reported to be DoD requisition forms. The individual was
                   arrested when he attempted to take possession of the gold.

 Computer Crimes   Criminal activity in the cyber environment continues to grow, with
                   viruses, denial of service attacks, and hacker attacks being the most
                   notorious crimes. Easy access to the Internet led to another type of
                   computer crime--accessing child pornography using DoD computers.
                   Such pornography is often discovered while examining DoD computers
                   for evidence in other criminal matters or is detected and reported by
                   network administrators.




                                         12
Semiannual Report to the Congress                                                         Chapter One




                            An individual from Matawan, New Jersey, was sentenced to 20 months
                            incarceration, 3 years probation, a $5,000 fine and a $100 special assess-
                            ment fee for knowingly transmitting a computer virus. A joint federal
                            investigation revealed that this individual created the “Melissa” computer
                            virus and knowingly transmitted it over the Internet on March 26, 1999.
                            “Melissa,” which is a Microsoft Word macro virus, propagates over the
                            Internet by using the e-mail programs of computers it has infected. The
                            investigation found that by subverting e-mail in this manner, the virus
                            overloaded and caused the shutdown of the computer networks of numer-
                            ous major corporations and government agencies, including the DoD.
                            “Melissa” cost the DoD in excess of 33,000 work hours.

                            A U.S. Army private first class (PFC) stationed at Fort Sam Houston,
                            Texas, was sentenced in U.S. District Court, Eastern District of Virginia,
                            to 27 months incarceration, 24 months supervised release, and ordered to
                            pay a $100 special assessment for possession of child pornography. In
                            March 2001, Network Solutions notified the Herndon Police Department,
                            Herndon, Virginia, that it had discovered images of child pornography on
                            a computer belonging to an employee during routine network mainte-
                            nance. This information was passed on to a Crimes Against Children
                            Federal Task Force sponsored by the Federal Bureau of Investigation
                            (FBI) in the Washington metropolitan area. In May 2001, this individual
                            enlisted in the U.S. Army. Subsequent investigation revealed that the PFC
                            possessed over 300 pornographic images of children on his work and
                            home computers.

                            A PFC stationed at U.S. Army, Fort Myer, Virginia, was sentenced in
                            U.S. District Court, Eastern District of Virginia, to 27 months
                            incarceration, 3 years supervised release and ordered to pay a $200 special
                            assessment for interstate transportation of obscene matters and possession
                            of child pornography. The PFC admitted logging into an Internet chat
                            room from his barracks room on Fort Myer and receiving and distributing
                            images of child pornography. He also admitted to knowingly receiving
                            and viewing approximately 75 images of child pornography that were
                            recovered from a computer seized from his residence in January 2002.

 Recent                     In July 2002, the Inspector General requested that the Deputy Assistant
 Management                 Inspector General for Criminal Investigative Policy and Oversight (CIPO)
 Actions                    develop a single process for handling OIG subpoenas requested by the
                            Military Criminal Investigative Organizations (MCIOs) and the Defense
                            Criminal Investigative Service (DCIS). The new process, which central-
                            izes subpoena processing within CIPO, avoids duplication, eliminates


                                                  13
Chapter One                                              Semiannual Report to the Congress




                horizontal and vertical levels of review, and ensures efficiency and
                consistency in operations.

                Following the events of September 11, 2001, CIPO formed the Enduring
                Freedom Support Group (EFSG), consisting of senior CIPO, DCIS,
                MCIO, and law enforcement organization policy experts. At quarterly
                meetings, the EFSG addresses emerging issues faced by the DoD criminal
                investigative and law enforcement community, seeking to concentrate
                resources in areas that provide the greatest assistance to the DoD.
                Through the EFSG, CIPO strives to reduce barriers, develop strategies,
                and forward or coordinate major areas of concern facing the law enforce-
                ment community. Notable accomplishments have been the coordination
                of civilian arrest authority implementation; broadened application of
                investigative authorities; implementation of new subpoena processes;
                elimination of outdated regulatory requirements; and coordination on new
                language for significant policy issuances.

                On June 21, 2002, the Inspector General issued DoD Instruction 5505.3,
                “Initiation of Investigations by Military Criminal Investigative
                Organizations.” The Instruction updates responsibilities and procedures to
                ensure the independence, objectivity, and effectiveness of the MCIOs,
                while ensuring that criminal allegations or suspected criminal allegations
                are referred promptly to the appropriate MCIO or law enforcement
                organization.

CRIMINAL        The Office of Criminal Investigative Policy and Oversight issued two
INVESTIGATIVE   evaluations reports during this period: Evaluation of the Policies and
POLICY AND      Practices for the Utilization of DNA Technology within the Military
OVERSIGHT       Criminal Investigative Organizations, May 17, 2002; and Evaluation of
                DoD Correctional Facility Compliance with Military Sex Offender
                Notification Requirements, June 26, 2002.

                The DNA report indicated that the MCIOs’ use of DNA technology as an
                investigative tool has achieved effective results. The DNA technology
                helps solve crimes by identifying the perpetrators of violent crimes and by
                clearing blameless suspects. The report recommended improvements for
                submitting DNA evidence for analysis in unknown subject cases; for
                reducing the backlog of rape kits in unknown subject cases; for training to
                enhance agent awareness of DNA database capabilities; and for the use of
                certified forensic laboratories to ensure DNA evidence profiles are
                entered into the FBI forensic evidence index.




                                     14
Semiannual Report to the Congress                                                           Chapter One




                            The military sex offender notification requirements report noted that
                            while DoD has published guidance providing for sex offender
                            notifications, the Services do not fully implement the guidance and
                            generally do not meet the notification requirements. In addition, military
                            confinement facilities frequently do not receive documentation alerting
                            them to victim and witness notification requirements, and they do not
                            always satisfy the requirements even when they receive the documenta-
                            tion. As a result, some victims and witnesses do not receive notifications
                            from military confinement facilities when an inmate is released from
                            confinement. The report recommended a number of management actions
                            to improving the notification process.

VOLUNTARY                   The Voluntary Disclosure Program encourages contractors to disclose
DISCLOSURE                  potential criminal or civil fraud that may affect their contractual
PROGRAM                     relationship with the DoD or the contractor’s responsibility under the
                            Federal Acquisition Regulation. During this reporting period, the govern-
                            ment recovered $1.7 million in disclosure settlements and received three
                            requests for admission to the program. Since its inception in 1986, the
                            program has recovered more than $420 million.

                            In one case during this reporting period, a company stated that it trans-
                            ferred costs from two firm fixed price contracts to its independent
                            research and development accounts, thus increasing costs related to other
                            contracts. In another case, a company reported that it failed to properly
                            monitor certain contractually required activities. However, the company
                            charged the government as though the monitoring activity was thoroughly
                            accomplished.

ADMINISTRATIVE              The OIG DoD Departmental Inquiries Office conducts investigations and
INVESTIGATIONS              also performs oversight of investigations conducted by the Military
                            Departments. Those investigations pertain to:

                                    •   Allegations of reprisal against military members, Defense
                                        contractor employees, and nonappropriated fund employees.

                                    •   Allegations that military members were referred for mental
                                        health evaluations without being afforded the rights prescribed
                                        in the DoD Directive and Instruction pertaining to mental health
                                        evaluations of members of the armed forces.

                                    •   Noncriminal allegations against senior military and civilian
                                        officials.


                                                    15
Chapter One                                                   Semiannual Report to the Congress




 Whistleblower       During the reporting period, the Special Inquiries Directorate and the
 Reprisal Activity   Military Department Inspectors General received 249 complaints of
                     whistleblower reprisal. During this period, 193 cases were closed. Of
                     those, 157 were closed after preliminary analysis determined further
                     investigation was not warranted and 36 were closed after full investi-
                     gation.

                     Of the 36 cases closed after full investigation, 10 (28 percent) contained
                     one or more substantiated allegations of whistleblower reprisal. These
                     cases were referred to commanders and supervisors for corrective action.

 Examples of         An Army major rendered an unfavorable Officer Evaluation Report to a
 Substantiated       subordinate captain in reprisal for the captain’s complaints to the chain of
 Whistleblower       command, an IG, and the Equal Employment Opportunity office
 Reprisal Cases      concerning discrimination and harassment by the major. The major
                     received a letter of reprimand as a result of the discrimination and harass-
                     ment disclosure. Corrective action regarding the substantiated reprisal
                     finding is pending.

                     A Navy chaplain received a non-punitive Letter of Instruction and an
                     adverse fitness report, and was relieved of his duties and detached for
                     cause, in reprisal for reporting to his chain of command the inappropriate
                     use of religious offering funds. Among the inappropriate uses reported
                     was payment for a religious social gathering that featured an open bar for
                     alcoholic beverages. The investigating officer recommended, and the
                     higher command endorsed, the following corrective actions: that the
                     adverse fitness report and detachment be expunged from the chaplain’s
                     official record; that he be reassigned to a position commensurate with his
                     rank and experience; and additional measures be taken to restore the
                     reputation and standing of the chaplain among his parishioners and the
                     religious community.

                     An Army colonel, captain (company commander), and command sergeant
                     major reprised against a sergeant first class (SFC) by recommending the
                     downgrade of his award nomination because they believed he made a pro-
                     tected communication to a Member of Congress. The SFC (complainant)
                     allowed another sergeant to use his home computer to send an email
                     communication to a Member of Congress. When the ensuing congres-
                     sional request for information was forwarded to the company commander,
                     the supporting documentation showed the SFC's email address, causing
                     responsible officials to believe the SFC made the protected communica-
                     tion. Corrective action is pending.


                                           16
Semiannual Report to the Congress                                                          Chapter One




                            A Navy rear admiral and captain reprised against a Navy commander by
                            issuing her an unfavorable fitness report because she complained about
                            the discrimination of female officers to an IG inspection team. The Vice
                            Chief of Naval Operations verbally admonished the rear admiral; the
                            captain received a verbal counseling and a nonpunitive letter of caution.

 Referrals for Mental       Eighteen cases closed during the reporting period contained allegations of
 Health Evaluations         improper referrals of military members for mental health evaluations. In
                            12 of those cases, it was substantiated that commanders failed to follow
                            the proper procedures for referring a Service member for a mental health
                            evaluation under DoD Directive 6490.1, “Mental Health Evaluations of
                            Members of the Armed Forces.” We continue our efforts with Military
                            Department IGs to improve commanders’ knowledge of the Directive’s
                            requirements.

 Senior Official            Figures 2 and 3 (page 18) show results of activity on senior official cases
 Inquiries                  during the period. On September 30, 2002, there were 224 ongoing
                            investigations into senior official misconduct throughout the Department,
                            which represented a moderate increase from April 1, 2002, when we
                            reported 195 open investigations. Over the past 6 months, the Department
                            closed 231 senior official cases, of which 34 (15 percent) contained sub-
                            stantiated allegations.

 Examples of Cases          We substantiated allegations that a senior DoD official engaged in a
 Involving Senior           leadership style that was inconsistent with applicable DoD guidelines, and
 Officials                  which contributed, in part, to continuing management problems at the
                            George C. Marshall Center for European Security Studies in Garmisch,
                            Germany. The investigation was initiated in response to several com-
                            plaints of mistreatment made by DoD personnel who were serving at the
                            Marshall Center. Although we did not substantiate complaints of discrimi-
                            nation, reprisal, or gender discrimination, we determined that the senior
                            official’s conduct contributed to a persistent state of apprehension on the
                            part of numerous employees at the Marshall Center.

                            In two separate investigations, we concluded that senior military officers
                            allowed their enlisted aides to perform personal services in violation of
                            DoD regulations that limit enlisted aide duties to those that are related to
                            military and other official responsibilities. Unauthorized services included
                            preparing and serving food at personal entertainment functions and main-
                            taining a senior officer’s personal vehicle.

                            In another case, we substantiated allegations that a senior DoD official
                            accepted a reserved parking space in a government-leased building at a

                                                  17
Chapter One                                                                              Semiannual Report to the Congress




                                   DoD Total Senior Official Cases
                                          FY 99 - FY 02

              600                                                             578

                                                                                         503
                                                                       488
              500                              455                                              460

                          401                         402
              400                369



              300

              200
                                                                                    89
              100                      66                    69                                        70



                0
                                FY99                 FY00                    FY01              FY02

                                            Opened          Closed      Substantiated



                      This chart shows the total number of senior official investigations
                              conducted in the DoD over the past 4 fiscal years.


                                                       Figure 2




              Nature of Substantiated Allegations Against Senior Officials
                                During 2nd Half FY 02

                                                                         Other
                    Misuse Gov't                                       Misconduct
                     Property/                                            19%
                     Resources
                        21%




                                                                                                       Abuse of
                                                                                                      Authority/
                Improper Personnel                                                                    Favoritism
                     Action                   Sexual Harassment/                                         37%
                      17%                         Improper
                                                 Relationship
                                                      6%



                           Cases Closed: 231                           Substantiated: 34

                                                            Figure 3




                                                                  18
Semiannual Report to the Congress                                                            Chapter One




                            price that was reduced by the parking vendor in deference to the official
                            position held by the DoD employee. We concluded that the senior
                            official’s actions in the matter violated ethics regulations that prohibit the
                            acceptance of gifts that are given because of official position. When
                            advised of that conclusion, the senior official reimbursed the vendor over
                            $2,300.

                            We also examined allegations that improper influence tainted the results
                            of a Navy Selection Board for promotion to rear admiral. We concluded
                            that the board itself was conducted in accordance with statutory and regu-
                            latory guidance and that no board member was subjected to improper
                            influence. However, we found that senior Navy officials disclosed
                            proceedings of the Selection Board to persons who were not authorized to
                            receive that information in violation of applicable DoD guidelines.
                            Additionally we found that before the board convened, a senior Navy
                            official released information from one candidate’s record to another can-
                            didate in violation of the Privacy Act as implemented by DoD regulation.
                            The results of the foregoing five investigations were provided to cogni-
                            zant management officials for consideration of corrective action.

                            We also substantiated allegations that a senior DoD official improperly
                            authorized a Navy installation to host a large convention sponsored by a
                            major association. The convention, held in August 2000, caused military
                            operations at the installation to be suspended for a period of 11 days and
                            significantly interfered with the performance of official duties. We con-
                            cluded that the Navy’s hosting of the convention on this occasion violated
                            regulations that govern DoD support to non-federal entities. We provided
                            the results of our investigation to the Secretary of the Navy for consid-
                            eration in evaluating future requests for support to non-federal entities,
                            but we found insufficient basis to recommend further corrective action
                            because we considered the event an isolated incident and the responsible
                            DoD official left government service.

AUDITING                    The central audit offices of the DoD are the OIG DoD, the Army Audit
                            Agency, the Naval Audit Service, and the Air Force Audit Agency. The
                            organizations all together issued 228 reports, identifying the opportunity
                            for $1.4 billion in monetary benefits. Appendix B lists internal audit
                            reports by issue area. Appendices C and D, respectively, list OIG DoD
                            reports with potential monetary benefits and statistically summarize audit
                            followup activity.

                            The Defense Contract Audit Agency (DCAA) provided financial advice
                            to contracting officers in 22,790 reports issued during the period. Contract

                                                  19
Chapter One                                             Semiannual Report to the Congress




              auditing resulted in approximately $3,234 million in questioned costs and
              funds put to better use. Further details are at Appendix E.

INFORMATION   The key to success on the modern battlefield and in internal business
TECHNOLOGY    activities is the ability to produce, collect, process, and distribute infor-
MANAGEMENT    mation. Data must be accurate, timely, secure, and usable. The huge scale,
              unavoidable complexity, and dynamic nature of DoD activities make them
              heavily dependent on automated information technology. This
              dependence has proven to be a major challenge, because DoD manage-
              ment techniques have not kept pace with the continual growth in
              information user requirements and the shortened life spans of
              technologies before obsolescence.

              Seventeen audits during the reporting period continued to indicate a wide
              range of management problems in systems selected for review. The
              important systems for which management improvements were
              recommended included the Defense Travel System, Preventive Health
              Care Application, Global Command and Control System, Computerized
              Accounts Payable System, and Military Airspace Management System. A
              $452 million seat management contract for information technology
              services and equipment was cancelled as a failure this year because
              planning for the contract did not identify the return on investment, bene-
              fits, or prescribe performance measures.

INFORMATION   The information security threat to DoD systems and to other public and
SECURITY      private sector systems on which national security depends is greater than
              ever. Its sources include foreign governments, terrorist groups, dis-
              gruntled government or contractor employees, vandals, criminals with
              financial motives, and mere curiosity seekers. This extraordinarily diverse
              population also has a wide variety of constantly improving techniques and
              tools at its disposal. The challenge to DoD is to minimize vulnerabilities
              without losing the advantages of open, interconnected systems with large
              numbers of users. Because of the constantly evolving threat and the sheer
              size of DoD information operations, the Department needs to be both
              highly flexible and systematic in its approach to information security.
              Although the DoD is a leader in many aspects of this complex problem,
              we continue to find a wide range of security weaknesses.

              During the reporting period, the DoD audit community issued 14 reports
              on information security. Subtitle G, Government Information Security
              Reform, of Ti tl e X of t he Flo yd D. Sp en ce Nati on al Defense
              Authorization Act for Fiscal Year 2001, Public Law 106-398, requires that
              each agency obtain an independent assessment of its security posture.

                                    20
Semiannual Report to the Congress                                                         Chapter One




                            The OIG is required to evaluate the security posture based on an
                            independently selected subset of information systems. A summary of the
                            OIG review was provided to DoD for inclusion in the annual information
                            security report to the OMB. The review assessed the accuracy of the data
                            DoD used to report the security status for 560 information technology
                            systems. The DoD reported invalid data on the security status of systems
                            in 2001 for an estimated 370 systems. The OMB and DoD managers did
                            not have dependable information to ascertain the degree to which infor-
                            mation security controls exist in systems. Further, although the require-
                            ment for systems to obtain security certification and accreditation has
                            existed since 1997, we estimate that only 101 of 560 systems met the
                            requirement.

ACQUISITION                 No other organization in the world buys the amount and variety of goods
                            and services such as those purchased by the DoD. In fiscal year 2001, the
                            Department spent $175 billion through contracts and other instruments,
                            using about 19,000 transactions per day. There are about 1,500 weapon
                            systems acquisition programs, valued at $1.8 trillion over the collective
                            lives of these programs. The amount spent to procure services, $56 billion
                            in fiscal year 2001, is increasing as DoD Components continue to expand
                            outsourcing pursuant to the Federal Activities Inventory Reform Act of
                            1998 and the Presidential Management Initiative on Competitive
                            Sourcing. The management challenge is, despite this huge scale, to
                            provide materiel and services that are superior in performance, high in
                            quality, sufficient in quantity, and reasonable in cost.

                            During the reporting period, the DoD audit community issued 49 reports
                            that addressed a range of continuing acquisition issues. There has been
                            particular concern over the past two decades about the length of the acqui-
                            sition cycle and the high per unit cost of weapon systems. For example,
                            the V-22 Advanced Tiltrotor Aircraft (Osprey) has been under
                            development since 1981, and the currently estimated production cost is
                            $65 million per plane. Despite years of development, we reported that the
                            V-22 hydraulics system performed at reliability rates significantly lower
                            than predicted. Other audits have continued to reveal the lack of compe-
                            tition for service contracts. One report identified where the Navy
                            exceeded the 5-year regulatory time limit for $1 billion of environmental
                            service contracts and thus did not benefit from re-competing the require-
                            ments. Abuse of the $9.7 billion charge card programs recently emerged
                            as another special concern and there were 12 reports issued about controls
                            for charge cards. The Department convened a special task force that
                            included OIG auditors and investigators and issued a report calling for


                                                 21
Chapter One                                             Semiannual Report to the Congress




               additional controls and instituting new policies of zero tolerance for abuse
               of credit cards.

               Requirements computations and pricing continue as problems for spare
               parts. A report on the Defense Logistics Agency aviation investment pro-
               gram identified spare parts purchases that exceeded program performance
               requirements. Acquisition audits provided continued indications that
               many of the acquisition reforms initiated over the past few years have not
               been fully or effectively implemented, often because the acquisition
               workforce is both under staffed and under trained. Senior managers at the
               OIG believe that problems in the acquisition area are due largely to
               mismatches between requirements and available funding, inadequate
               internal management information systems, and the relatively low priority
               given to improvement in contracting for services until very recently.

CHEMICAL AND   The proliferation of biological and chemical technology and material has
BIOLOGICAL     provided potential adversaries with the means to challenge directly the
DEFENSE        safety and security of the United States and our military. The anthrax
               letters sent last fall made manifest the danger of terrorists armed with
               biological weapons. The probability of military personnel encountering
               chemical and biological agents remains high. The Chemical and Biolog-
               ical Defense program is to ensure that military personnel are the best
               equipped and best prepared forces in the world for operating in battle
               space that may feature chemically and biologically contaminated
               environments.

               The OIG has continued its strong presence in ensuring adequate oversight
               of chemical and biological defense issues. Since we started working on
               this issue in 1994, the Department has made great strides in improving the
               quality of chemical and biological defense equipment, the individual and
               unit training, and equipping military units. However, additional improve-
               ments are needed. The OIG reported on problems with the logistics and
               maintenance of chemical and biological protective equipment in the
               European Command and Central Command, acquisition of the chemical
               agent detector and controls at DoD laboratories, and medical facilities that
               use and ship biological agents. The Army Audit Agency reported on the
               need to improve unit-level training for chemical and biological defense
               and provide additional support for chemical and biological defense to
               forward stationed DoD civilians and contractors..

QUALITY        It is vital that the DoD quality assurance programs ensure that the
ASSURANCE      products delivered to our warfighters are of the highest quality. Recent



                                     22
Semiannual Report to the Congress                                                          Chapter One




                            reviews have shown that reductions in personnel and funds adversely
                            affected the quality assurance programs.

                            The Defense Logistics Agency Quality Manufacturer’s List and Quality
                            Products List Program aim to increase product quality and reliability and
                            buying productivity, and to enhance logistics management operations by
                            establishing a list of vendors that received manufacturing line audits and
                            are certified as providing high quality critical items. An OIG report
                            showed that 42 percent of the audits were not accomplished for 1,196
                            vendors manufacturing lines needing certification. Some certifications
                            were 8 years overdue. A lack of staff to perform the audits and certifica-
                            tions resulted in a higher risk of receiving nonconforming parts. Similarly,
                            a lack of staff for the Navy Product Quality Deficiency Program resulted
                            in as many as 1.4 million potentially nonconforming items in the inven-
                            tory. Another report identified where the Navy and Defense Logistics
                            Agency failure to enforce contract specifications resulting in the
                            purchases of $12 million of mattresses for ships that were not fire
                            resistant.

COOPERATIVE                 The Cooperative Threat Reduction Program was initiated to reduce the
THREAT REDUCTION            threat posed by weapons of mass destruction in the former Soviet Union.
PROGRAM                     Under the program, the United States provides funds to build facilities and
                            operate programs to safeguard, transport, and ultimately destroy chemical
                            and nuclear weapons. Adequate controls for the program are vital to
                            ensuring that the limited program funds are used effectively. However, a
                            review showed that a recently completed $95 million facility in Siberia
                            for converting rocket fuel to nonmilitary purposes now sits idle because
                            Russia used the rocket fuel for its commercial space program. Because of
                            a lack of written agreement to provide the rocket fuel and inadequate
                            inspections, the DoD was unaware that Russia diverted the rocket fuel for
                            other purposes.

WEB SITE                    The heads of DoD Components are responsible for establishing a process
MANAGEMENT                  to identify appropriate information for posting to web sites and to review
                            all information placed on publicly accessible web sites for security levels
                            of sensitivity before the information is released. The Component heads
                            are also responsible for management oversight, resource support, and
                            annual security assessment of their web sites.

                            OIG reports on web site management identified a lack of attention to
                            information made available to the public and inadequate oversight of the
                            programs. The Army’s publicly assessable web sites contained inappro-
                            priate information, which was inconsistent with Army web policy.

                                                  23
Chapter One                                                       Semiannual Report to the Congress




                 Between April and September 2001, the Joint Web Site Assessment Cell
                 identified and reported to DoD web site owners, 200 disclosures of
                 inappropriate information that were available for public viewing. As of
                 May 2002, 30 of the 200 disclosures remained available for public
                 viewing.

SIGNIFICANT      Managers accepted or proposed acceptable alternatives for 708 (97
OPEN RECOMMEN-   percent) of the 731 OIG DoD audit recommendations made during fiscal
DATIONS          year 2002. Many recommendations require complex and time-consuming
                 actions, but managers are expected to make reasonable efforts to comply
                 with agreed-upon implementation schedules. Although most of the 1,222
                 open actions being tracked in the OIG DoD follow-up systems are on
                 track for timely implementation, there were 226 reports over 12 months
                 old, dating back as far as 1991, for which management has not completed
                 actions to implement the recommended improvements.1/

                 We are concerned that DoD was not benefiting from the recommended
                 improvements and was not meeting the intent of the Inspector General
                 Act to complete corrective actions within 12 months. To accelerate imple-
                 mentation of the corrective actions, the Inspector General recently wrote
                 to each Component head responsible for the delinquent recommendation
                 and requested their assistance in completing the needed actions.

                 Significant open recommendations that have yet to be implemented
                 include the following:

                       •    Recommendations made in 1997 for a detailed methodology to
                            be developed for cross-organizational and cross-functional
                            coordination of DoD Joint Technical Architecture implemen-
                            tation plans for information technology systems.

                       •    Recommendations made in 1999 for better monitoring of leased
                            commercial satellite capacity to enable more intensive planning


                 1. Section 6009 of the Federal Acquisition Streamlining Act, as amended, provides: “If
                   the head of the agency fails to complete final action with regard to a management
                   decision within the 12-month period, the inspector general concerned shall identify the
                   matter in each of the inspector general’s semiannual reports pursuant to section 5(a)(3)
                   of the Inspector General Act of 1978 (5 U.S.C. App.) until final action on the
                   management decision is completed.” A list of OIG reports on which management
                   decisions have been made but final action has not been taken is contained in the
                   Secretary of Defense Report issued pursuant to section 5(b) of the Inspector General
                   Act.


                                           24
Semiannual Report to the Congress                                                            Chapter One




                                        for various scenarios requiring mixes of DoD-owned and
                                        commercial satellite support.

                                    •   Recommendations made in 1999 to update, clarify, and
                                        standardize policy to define security requirements, especially
                                        those pertaining to identification and authentication in order to
                                        provide more consistency in the Defense Information Assurance
                                        Program.

                                    •   Recommendations made in 2000 to implement a process for
                                        prioritizing security clearance requests to improve the efficiency
                                        of the DoD personnel security clearance investigative efforts.

OIG DOD                     On June 4, 2002, Inspector General Joseph E. Schmitz, accompanied by
TESTIMONY                   Deputy Inspector General Robert J. Lieberman, testified before the House
                            Government Reform Subcommittee on National Security, Veterans’
                            Affairs and International Relations at a hearing entitled, “Transforming
                            Defense Financial Management: A Strategy for Change.” The Inspector
                            General testified that based on audit opinions of fiscal year 2001 DoD
                            financial statements, the Office of Inspector General was unable to report
                            progress for the DoD-wide financial statement or for major component
                            funds. The OIG DoD issued an unqualified (clean) opinion for the
                            Military Retirement Fund’s statement; however, disclaimers of opinion
                            were necessary for all other major funds.

                            For several years, the OIG DoD has reported that the lack of adequate
                            financial reporting systems and a variety of internal control problems
                            prevent those systems from being able to consistently produce either
                            useful day-to-day financial information or commercial-type financial
                            statements. The Department of Defense has taken a major step to trans-
                            form financial management through a new effort to establish a
                            comprehensive financial system architecture.

                            The Inspector General stated that the OIG would continue to support the
                            Department’s efforts to strengthen its financial systems by providing
                            timely and useful audit advice as well as through proactive fraud
                            prevention and detection efforts and the aggressive investigation of
                            financial crimes.

INTELLIGENCE                See the Classified Annex to this report for summaries of the 80
REVIEW                      intelligence-related and other sensitive reports.




                                                    25
Chapter One                                    Semiannual Report to the Congress




              This page left blank intentionally




                            26
Semiannual Report to the Congress                                                           Chapter Two




CHAPTER TWO - OFFICE OF THE INSPECTOR GENERAL
TRANSFORMATION

                            On the one-year anniversary of Secretary of Defense Rumsfeld’s "War on
                            Bureaucracy," the Inspector General released the results of an inde-
                            pendent assessment that points the way to a transformation of the Office
                            of the Inspector General. The IG had commissioned the independent
                            assessment as one of his first actions after being sworn into office on
                            April 2, 2002, in the spirit of the Secretary’s call on September 10, 2001,
                            to reform wasteful processes and systems in Pentagon organization. The
                            assessment team was assembled by Military Professional Resources,
                            Incorporated, (MPRI) of Alexandria, Virginia, and was assigned the
                            objective of conducting “an independent review to assess the overall
                            effectiveness of the Office of Inspector General,” including how the office
                            “satisfies it legal, ethical, and oversight obligations within the Department
                            of Defense.”

                            The Assessment Team was composed of retired military personnel and
                            attorneys with extensive Inspector General experience. Starting its 90-day
                            assessment on April 21, 2002, the team conducted a “bottom-to-top”
                            review that involved 316 individual interviews, 34 seminars with junior,
                            middle, and senior grade staff that reached approximately 643 of the
                            1,257 employees, including visits to 26 field locations. The assessment
                            included a not-for-attribution survey that received 527 voluntary written
                            responses. The team made ten major recommendations ranging from ways
                            to restructure and carry out the mission of the Inspector General to trans-
                            forming and reinvigorating the internal ethical culture of both employees
                            and senior management.

                            Ongoing efforts to transform the Office of the Inspector General have
                            built upon many of the recommendations proposed by the assessment
                            team as well as the IG's own observations gained after months of hands-
                            on-experience in working with both the Department and the Congress.
                            Phase I of the transformation effort includes eliminating a layer of
                            management, creating a three “deputy structure” for greater organiza-
                            tional depth and improved continuity of operations, implementing
                            unifying and transcending principles throughout the organization, estab-
                            lishing a new, dedicated public affairs function, creating an elite financial
                            auditing service to provide the DoD with audited financial statements, and
                            integrating three operational directorates including a new Assistant IG for
                            Inspections and Policy. A planned Phase II of the transformation effort


                                                  27
Chapter Two                                            Semiannual Report to the Congress




              will eliminate another layer of management and fully integrate the DoD
              IG Office of Intelligence Review. A future Phase III could include, among
              other things, a brick-and-mortar IG Academy, where only a "virtual
              academy" exists today.

              In working to transform the Office, the IG has called to mind the applica-
              bility of the words of Secretary Rumsfeld’s “War on Bureaucracy” speech
              one year ago: “Just as we must transform America’s military capability to
              meet changing threats, we must transform the way the Department works
              and what it works on. We must build a Department where each of the
              dedicated people here can apply their immense talents to defend America,
              where they have the resources, information and freedom to perform.”

              A copy of the assessment team’s report is available at [https://intra.dodig.
              mil/fo/newsfromig/index.html].




                                    28
Chapter Two                      Semiannual Report to the Congress




              OIG Organization




                     29
Chapter Two                                    Semiannual Report to the Congress




              This page left blank intentionally




                            30
Semiannual Report to the Congress                                                                 Appendix A


                                    APPENDIX A
                    INDICATORS OF POTENTIAL TERRORIST THREATS
                                   OCTOBER 2002



                          Message from the Inspector General

None of us will forget the horrific events of September 11, 2001, at the Pentagon and the New York World
Trade Center. During those attacks and in their aftermath, we witnessed the remarkable efforts of our
nation’s law enforcement personnel to protect us and prevent future terrorist acts. We also witnessed the
unification of Americans everywhere, as they resolutely supported efforts to combat terrorism.

We all play an important role as Department of Defense employees in contributing to the Force Protection
mission and the effort to enhance Homeland Defense. In protecting the men and women of the Department
of Defense, our facilities and programs, and other national assets, law enforcement personnel in particular
need to be alert for activities that may be precursors to terrorist acts. DoD law enforcement personnel are
especially well trained and disposed to provide this vigilance and are specifically guided by DoD Directive
5200.27.

To assist their efforts, we offer this listing of activities or conditions that may be “Indicators of Potential
Terrorist Threats.” The activities and conditions listed are by no means all-inclusive. Further, some
activities may reflect innocent behavior or relate to other types of criminal behavior. However, we must be
aware that even outwardly innocent activities may be part of a larger scheme with the ultimate goal of
harming our people and resources and disrupting our vital mission of protecting our citizens and our way
of life.

If you observe these activities/conditions or they are reported to you, you must share them immediately
with other appropriate law enforcement or intelligence agencies.




                                             Joseph E. Schmitz




                                                      31
Appendix A                                                       Semiannual Report to the Congress


Suspicious activities near, on, or about Government buildings or
installations
     > Theft of badges, credentials, ID cards, Government/military/emergency vehicles,
       military apparel, etc. Discovery of false identifications.

     > Photographing, sketching, or surveillance of military facilities.

     > Trespassing near key facilities, particularly by multiple persons.

     > Uncommon or abandoned vehicles, packages, or containers.

     > Person(s) observed searching trash containers or placing items in trash containers
       adjacent to a Government facility or residence of Government personnel.

     > Large thefts of sensitive military property such as computers and particularized
       deployment equipment (gas masks/cold weather gear).

     > Purchase through Government sales of military hardware with intent or indications to
       refurbish to working condition.

     > Purchase/attempted purchase, theft, or possession of large numbers of weapons or of
       heavy weapons.

     > Purchase/theft/possession of explosives or supplies necessary for the manufacture of
       explosive devices.

     > Increase in cyber attacks/probes.

     > Increase in the number of threats to Government facilities that require evacuation.

     > Theft of Government vehicles, vehicle passes, uniforms, or standard operating
       procedures.

     > Unknown workers trying to gain access to facilities for repairs, installation of
       equipment, etc.

     > E-mail attempting to obtain information regarding the facility, personnel, or operating
       procedures.

     > Unusual patterns of seemingly unimportant activity: patterns of travel (vehicle, foot,
       boat, air) or routes of travel that seem to serve no purpose may be used as a means to
       observe targeted individuals, activities, installations, or ports. For example, a boater who
       routinely passes along the Ft. Belvoir Potomac River waterfront, yet he is clearly not a
       fisherman, water skier, etc.

     > Individual's establishing businesses or roadside food stands adjacent or in proximity to
       Government facilities.

     > Unknown persons or occupied vehicles loitering in vicinity of a Government facility for
       an extended period of time.




                                                32
Semiannual Report to the Congress                                                       Appendix A


Conversations about Government facilities, programs, or personnel
     > Unknown persons attempting to gain information about facilities by engaging DoD
       personnel or their families in conversation.

     > Person(s) expressing support for the September 11, 2001, attacks.

     > Person(s) advocating violence against certain religious, racial, or ethnic groups.

     > Person(s) sympathetic to groups who advocate the violent overthrow of the U.S.
       Government.

     > Suspicious requests for purchase or lease of or training in potentially dangerous
       instrumentalities, e.g., airplanes, large trucks, underwater gear near naval installation.

     > Remarks threatening or potentially threatening Government personnel, facilities, and
       equipment.

     > Intrusive questions posed by strangers about personal information or information about
       Government duties and responsibilities.




                                                33
Appendix A                                                        Semiannual Report to the Congress


Delivery of suspicious mail, packages, or other items
     > Mail that has no return address.

     > Mail addressed only to title of prospective recipient or using an incorrect title.

     > Misspelled words or defective address.

     > Restrictive markings such as "confidential" or "personal for."

     > Excessive postage.

     > Stains, discoloration, oiliness, crystallization, or strange odor.

     > Abnormal size; excessive wrapping.

     > Wires, metal foil, or string protruding.

     > Unusually heavy or unbalanced.

     > Lopsided or uneven envelope.

     > Very rigid envelope.

     > Springiness.

     > Suspicious package drop-offs/attempted drop-offs.




                                                34
Semiannual Report to the Congress                                                      Appendix A


General suspicious activity that may cause concern
     > Large group of persons (particularly men) occupying a house, apartment, motel room(s)
       with no apparent purpose or the leasing of highrise dwellings or office space
       overlooking Government facilities. No apparent patterns of departure/arrival, e.g.,
       consistent with work commute.

     > Establishment of large bank accounts by recent arrivals in the United States.

     > Personnel in possession of large amounts of cash for no apparent reason.

     > Personnel attempting to purchase in cash expensive means of transportation (vehicles,
       boats, etc.).

     > Suspicious general aviation aircraft operating in proximity to Government facilities.




                                              35
Appendix A                                        Semiannual Report to the Congress




             This page left blank intentionally




                              36
Semiannual Report to the Congress                                                                     Appendix B

                        APPENDIX B*
 REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS

  Excludes base level reports issued by the Air Force Audit Agency and memorandum reports and
  consulting reports issued by the Army Audit Agency. Includes evaluation reports issued by the OIG
  DoD.

  For copies of reports that are not classified or otherwise sensitive from a national security or legal
  standpoint, contact:

             OIG DoD                                      Army Audit Agency
             (703) 604-8937                               (703) 681-9863

             Naval Audit Service                          Air Force Audit Agency
             (202) 433-5737                               (703) 696-8027
                                                          (703) 696-8014




                     Summary of Number of Reports by Issue Area1


                               April 1, 2002- September 30, 2002

                                            OIG DoD            Military Depts.                   Total
 Financial Management                          14                        50                           64
 Acquisition                                   17                        32                           49
 Logistics                                       8                       26                           34
 Readiness                                       3                       14                           17
 Information Technology                        10                         7                           17
 Management
 Infrastructure and Environment                  6                       10                           16
 Information Security                          10                         4                           14
 Human Capital                                   2                        5                            7
 Health Care                                     3                        3                            6
 Other Security Concerns                         2                        1                            3
 Cooperative Threat Reduction                    1                        --                           1




 *Partially fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
  Section 5(a)(6) (see Appendix C).


                                                       37
Appendix B                                                            Semiannual Report to the Congress


                                   D-2002-128 Promptness of FY           A-2002-0306-FFP Morale,
FINANCIAL                          2002 Fourth Quarter DoD               Welfare and Recreation Use of
MANAGEMENT                         Payments to the Department of         Appropriated Funds (4/24/02)
                                   the Treasury for District of
                                   Columbia Water and Sewer              A-2002-0274-FFB Secretary of
IG DoD                             Services (7/15/02)                    Defense Executive Dining
                                                                         Facility Fund FY 01 Financial
D-2002-078 Navy and Marine         D-2002-130 Accounting and             Statements (4/25/02)
Corps Military Equipment           Reporting Processes at Defense
Reporting (FOR OFFICIAL            Finance and Accounting Service        A-2002-0313-IMU
USE ONLY) (4/3/02)                 San Antonio (7/22/02)                 Nonappropriated Fund Payroll
                                                                         (4/26/02)
D-2002-082 Promptness of FY        D-2002-140 Measurement of
2002 Third Quarter DoD             Water Usage by DoD                    A-2002-0366-AMI
Payments to the Department of      Components Serviced by the            Reimbursements for Materiel
the Treasury for District of       District of Columbia Water and        Provided Through the Army
Columbia Water and Sewer           Sewer Authority (8/20/02)             Sensitive Support Program,
Services (4/15/02)                                                       Technology Management Office
                                   D-2002-141 Implementation of          (5/6/02)
D-2002-096 Major Deficiencies      the Data Quality Management
in Financial Reporting for Other   Control Program for the Military      A-2002-0357-IMU Laundry
Defense Organizations-General      Health System (8/29/02)               and Dry Cleaning Services
Funds (5/31/02)                                                          (5/10/02)
                                   D-2002-145 Effect of the
D-2002-115 The Defense             Raytheon Defense Business             A-2002-0365-AMW
Security Service Cost              Acquisitions on Pension Plans         Compilation of Army Working
Accounting System to Support       and DoD Funded Pension Assets         Capital Fund FY 01 1307
Fee-For-Service (FOR               (9/11/02)                             Accounting Report (5/13/02)
OFFICIAL USE ONLY)
(6/24/02)                          D-2002-147 Allegation to the          A-2002-0367-AMW Materiel
                                   Defense Hotline on the Use of         Returns, Army Working Capital
D-2002-116 Review of the FY        Funds by Navy Region                  Fund (5/22/02)
2001 Financial Statements for      Southeast (9/16/02)
the National Security Agency                                             A-2002-0418-AMW Accounts
(CLASSIFIED) (6/25/02)             Army Audit Agency                     Payable, Corpus Christi Army
                                                                         Depot, Army Working Capital
D-2002-117 Review of the FY        A-2002-0276-FFB The Army              Fund (6/10/02)
2001 Financial Statements for      Executive Dining Facility Fund
the Defense Intelligence Agency    FY 01 Financial Statements            A-2002-0446-AMW Reduction
(CLASSIFIED) (6/25/02)             (4/12/02)                             of the Army Working Capital
                                                                         Fund FY 01 Cash Balance
D-2002-118 Review of the FY        A-2002-0305-IMH Financial             |(6/24/02)
2001 Financial Statements for      Controls--Rod and Gun Club
the National Imagery and           (4/17/02)                             A-2002-0465-AMW Accounts
Mapping Agency                                                           Payable, Depot Maintenance
(CLASSIFIED) (6/25/02)             A-2002-0304-AMW Selected              and Ordnance Activity Groups,
                                   Internal Controls Over                Army Working Capital Fund
D-2002-127 Department of           Inventory, Army Working               (7/2/02)
Defense’s Compliance With          Capital Fund (4/19/02)
Internal Use Software                                                    A-2002-0475-FFF Controls
Accounting Standards (7/9/02)      A-202-0254-FFG Army's                 Over Operating Tempo Funds
                                   General Fund Principal                (7/15/02)
                                   Financial Statements for
                                   FY 2001, Accuracy of Real
                                   Property Data Reported in the
                                   Real Property Systems (4/22/02)


                                                 38
Semiannual Report to the Congress                                                          Appendix B


A-2002-0484-IMU Execution           A-2002-0577-IMH Financial         F2002-0007-C06800 Air Force
of Morale, Welfare and              Controls – Golf Course            Working Capital Fund Fiscal
Recreation Funding for Family       Operations (9/27/02)              Year 2001 DoD Field
Support Programs (7/18/02)                                            Accounting Site Review
                                    A-2002-0588-FFB Budget            (5/20/02)
A-2002-0518-AMI Financial           Model for Civilian Personnel
Management of Special Access        Requirements (9/30/02)            F2002-0006-B05400 Official
Programs, Ordain Quest Project                                        Representation Funds (5/21/02)
Office (7/24/02)                    Naval Audit Service
                                    N2002-0039 Reimbursable           F2002-0009-B05800 Air
A-2002-0512-IMU Stored              Work Orders (CLASSIFIED)          Intelligence Agency Financial
Value Card (7/26/02)                (4/8/02)                          Management - Unliquidated
                                                                      Obligations (6/19/02)
A-2002-0499-AMW                     N2002-0055 Insufficient
Accounting Adjustments              Appropriated Fund Support of      F2002-0007-B05400 Followup
(7/26/02)                           Morale, Welfare, and Recreation   Audit, Controls Over Air Force
                                    Increases Cost to Individual      Cash (6/20/02)
A-2002-0513-IMU Travel
Claims, Logistics Assistance        Marines (6/14/02)                 F2002-0008-B05400 Civilian
Group-Europe (7/29/02)              N2002-0057 Validation of          Permanent Change of Station
                                    Unliquidated Obligations for      Reimbursements (7/8/02)
A-2002-0452-FFG Military
Pay and Benefits: The Army's        Selected Appropriations at the    F2002-0008-C06800 Fiscal
Contribution to the Military        Naval Supply Systems              Year 2001 Other Assets, Air
Retirement Trust Fund (8/14/02)     Command (6/20/02)                 Force Working Capital Fund
                                    N2002-0078 Validation of          (7/26/02)
A-2002-0536-IMU Military
Interdepartmental Purchase          Selected Unliquidated Obliga-     F2002-0005-B05300
Requests (8/21/02)                  tions at Naval Air Systems        Accounting for Air Force
                                    Command (9/25/02)                 Liabilities, Fiscal Year 2001
A-2002-0516-FFP Validating                                            (7/29/02)
the Program and Budget for          N2002-0082 Validation of
Headquarters Activities             Selected Unliquidated Obliga-     F2002-0009-C06800 Air Force
(8/30/02)                           tions at Naval Sea Systems        Working Capital Fund, Fiscal
                                    Command (9/30/02)                 Year 2001 Statement of
A-2002-0569-AMI Financial                                             Budgetary Resources - Retail
Management of SAPS –                Air Force Audit Agency
                                                                      Supply, Internal Control Review
Secretary of the Army (9/6/02)      F2002-0004-B05300                 (7/29/02)
                                    Memorandum Report, Fiscal
A-2002-0562-IMH                     Year 2001 Review of Field Site    F2002-0009-B05400 Office of
Management Controls for Reim-       Accounting Adjustments, Air       Special Investigations
bursable Orders (9/16/02)           Force General Fund (4/9/02)       Confidential Investigative
                                                                      Contingency Funds (8/6/02)
A-2002-0584-FFG                     F2002-0006-C06800 Air Force
Management Controls Over the        Working Capital Fund, State-      F2002-0007-C06400 Air Force
Exchange or Sale of Nonexcess       ment of Budgetary Resources -     Scientific Advisory Board
Property (9/16/02)                  Information Services Activity     Financial Management Review
                                    Group, Internal Control Review    (8/20/02)
A-2002-0566-IMH Followup            (4/11/02)
Issues, Morale, Welfare and                                           F2002-0007-B05300
Recreation Activities –             F2002-0004-C06200 Depot           Accounting for Property, Plant,
Financial Controls, Fort Bliss      Maintenance Budgets and Sales     and Equipment - Personal
Centennial Club (9/23/02)           Prices (4/18/02)                  Property (9/11/02)




                                                  39
Appendix B                                                           Semiannual Report to the Congress


F2002-0008-B05300                  D-2002-107 Army Transition of        A-2002-0377-IMU Controls
Accounting for Air Force Real      Advanced Technology                  Over Morale, Welfare and
Property, Fiscal Year 2001         Programs to Military                 Recreation Equipment Down-
(9/18/02)                          Applications (6/14/02)               range (Bosnia and Kosovo)
                                                                        (5/17/02)
F2002-0010-C06800 Air Force        D-2002-109 Army Claims
Working Capital Fund, Fiscal       Service Military Interdepart-        A-2002-0464-AMA Test and
Year 2001 Statement of             mental Purchase Requests             Evaluation - Nuclear, Biological
Budgetary Resources, Whole-        (6/19/02)                            and Chemical Systems (7/3/02)
sale Supply Management
Activity Group, Operations,        D-2002-110 Policies and              A-2002-0477-IME
Internal Control Review            Procedures for Military Inter-       Administering Service Contracts
(9/26/02)                          departmental Purchase Requests       (7/8/02)
                                   at Washington Headquarters
                                   Services (6/19/02)                   A-2002-0491-AMW Govern-
ACQUISITION                                                             ment Purchase Cards (7/25/02)
                                   D-2002-114 V-22 Osprey
                                   Hydraulic System (6/24/02)           A-2002-0492-AMW
IG DoD                                                                  Government Purchase Cards,
                                   D-2002-120 Air National Guard        Army Working Capital Fund
D-2002-083 Acquisition of the
                                   Decision on the Asynchronous         (7/26/02)
MK 54 Lightweight Hybrid
                                   Transfer Mode Installation
Torpedo (CLASSIFIED)                                                    A-2002-0514-AMA Common
                                   Contract (6/26/02)
(4/19/02)                                                               Missile Program (8/7/02)
                                   D-2002-126 Acquisition of the
D-2002-088 Acquisition of the                                           A-2002-0535-IMU Controls for
                                   Evolved SEASPARROW
Joint Service Lightweight                                               the International Merchant
                                   Missile (7/5/02)
Standoff Chemical Agent                                                 Purchase Authorization Card
Detector (5/10/02)                 D-2002-139 Naval Facilities          Program (8/21/02)
                                   Engineering Command
D-2002-090 Evaluation of the                                            A-2002-0580-AMA Managing
                                   Environmental Services
Defense Supply Center                                                   Service Contracts (9/23/02)
                                   Contracting (8/20/02)
Columbus Qualified Products
List and Qualified Manu-           D-2002-143 Acquisition of the        Naval Audit Service
facturers List Program (5/14/02)   Army Land Warrior System             N2002-0042 Department of the
                                   (9/5/02)                             Navy Commercial Purchase
D-2002-097 Contract
Administration Services                                                 Card Program (CLASSIFIED)
                                   D-2002-150 Procedures for            (4/25/02)
Function at Edwards Air Force      Selecting Contractor Personnel
Base (6/4/02)                      to Perform Maintenance on            N2002-0043 Department of the
                                   Army Aircraft in Bosnia              Navy Commercial Purchase
D-2002-100 The Acquisition of
                                   (9/18/02)                            Card Program (CLASSIFIED)
the National Exploitation
System (CLASSIFIED)                                                     (4/25/02)
                                   D-2002-152 Defense Hotline
(6/11/02)                          Allegations Concerning the           N2002-0044 Independent
                                   Procurement of the Seat              Review: Photographic Optics
D-2002-105 Fire Performance
                                   Management Initiative (9/25/02)      Branch Functions at the Naval
Tests and Requirements for
Shipboard Mattresses (6/14/02)                                          Air Warfare Center, Weapons
                                   Army Audit Agency                    Division, Point Mugu and China
D-2002-106 Allegations Con-        A-2002-0361-AMW Govern-              Lake, CA (4/26/02)
cerning the Defense Logistics      ment Purchase Cards (5/13/02)
Agency Contract Action
Reporting System (6/14/02)




                                                  40
Semiannual Report to the Congress                                                            Appendix B


N2002-0045 Independent              N2002-0076 Classified
Review: Ocean Terminal Opera-       Contracts (CLASSIFIED)               LOGISTICS
tions, Fleet and Industrial         (9/27/02)
Supply Center Norfolk, VA
(4/29/02)                           N2002-0077 Department of the         IG DoD
                                    Navy Commercial Purchase             D-2002-079 Delivery and
N2002-0046 Independent              Card Program (CLASSIFIED)            Receipt of DoD Cargo Inbound
Review: Facilities Support          (9/27/02)                            to the Republic of Korea
Services Function at Marine                                              (4/5/02)
Corps Air Station, Beaufort, SC     N2002-0081 Auditor General
(5/6/02)                            Advisory Naval Personnel             D-2002-080 Quality Deficiency
                                    Command Nonappropriated              Reporting Procedures for Naval
N2002-0051 Naval Sea                Fund Construction Contracting        Repair Parts (4/5/02)
Systems Command Commercial          (9/30/02)
Purchase Card Program                                                    D-2002-091 Accountability and
(5/28/02)                           Air Force Audit Agency               Control of Materiel at the
                                    F2002-0003-C06400 F-22               Corpus Christi Army Depot
N2002-0052 Management of            Integrated Product Team              (5/21/02)
Emergency Combat Use Only           Participation, Phase III (4/29/02)
Ordnance (6/3/02)                                                        D-2002-104 Military Traffic
                                    F2002-0005-C06400 Airborne           Management Command
N2002-0060 Department of the        Laser Program Integrated             Handling of Container
Navy Commercial Purchase            Product Team Participation,          Detention Charges (6/12/02)
Card Program (CLASSIFIED)           Phase III (7/30/02)
(7/8/02)                                                                 D-2002-112 Industrial Prime
                                    F2002-0004-C06400 U-2                Vendor Program at the Air
N2002-0062 Naval Air Systems        Acquisition Management               Force Air Logistics Centers
Command Award Fee Manage-           (8/6/02)                             (FOR OFFICIAL USE ONLY)
ment (7/24/02)                                                           (6/20/02)
                                    F2002-0006-C06400 Air Force
N2002-0068 Naval Facilities         Purchase Card Program (8/6/02)       D-2002-131 Terminal Items
Engineering Command’s                                                    Managed by the Defense
Process to Identify and Recover     F2002-0008-C06100 Night              Logistics Agency for the Navy
Contractor Debts (8/8/02)           Vision Imaging System                (7/22/02)
                                    Management (8/13/02)
N2002-0070 Naval Facilities                                              D-2002-136 Defense Logistics
Engineering Command                 F2002-0008-B05100 Most               Agency Aviation Investment
Commercial Purchase Card            Efficient Organization Eglin         Strategy Program (7/31/02)
Program (8/14/02)                   AFB Civil Engineering (9/2/02)
                                                                         D-2002-149 Defense Logistics
N2002-0074 Department of the        F2002-0008-C06400                    Agency-Managed Items
Navy Commercial Purchase            Memorandum Report, Air               Supporting Air Force Weapon
Card Program (CLASSIFIED)           Mobility Command's Program-          Systems (9/18/02)
(9/4/02)                            ming and Budgeting Actions
                                    Associated With Office of            Army Audit Agency
N2002-0075 Independent              Management and Budget
Review of Centralized Visual                                             A-2002-0262-AML Global
                                    Circular A-76 Reviews                Combat Support System-Army
Information, Administrative         (9/18/02)
Support, and Centralized                                                 Program Lessons Learned
Facilities Operations and                                                (4/2/02)
Maintenance Services at the                                              A-2002-0245-FFP Space
Corona Division, Naval Surface                                           Utilization of Classroom and
Warfare Center, Corona, CA                                               Training Facilities (4/5/02)
(9/10/02)




                                                   41
Appendix B                                                         Semiannual Report to the Congress


A-2002-0333-AML Logistics         N2002-0067 Management of
Integrated Database (5/7/02)      the Navy’s Sustainment,             READINESS
                                  Restoration, and Modernization
A-2002-0404-AMI Cover             Program (8/6/02)
Support Program, Site D                                               IG DoD
(5/16/02)                         N2002-0069 Contractor               D-2002-095 Chemical and
                                  Logistics Support at the Space      Biological Defense Individual
A-2002-0381-IME Transporta-       and Naval Warfare Systems           Protective Equipment in Central
tion Motor Pool (5/17/02)         Command (8/8/02)                    Command and Euro Command
                                                                      Areas (CLASSIFIED) (5/30/02)
A-2002-0376-AMW                   Air Force Audit Agency
Accounting for Real Property                                          D-2002-102 Summary Report
(5/22/02)                         F2002-0008-B05800 Aircraft
                                  Fuels Servicing Equipment           on Homeland Defense, Chemi-
                                  (4/2/02)                            cal and Biological Defense, and
A-2002-0423-AML Repair
                                                                      Other Matters Related to
Parts Support to Alert Forces
                                  F2002-0005-C06200 C-141             Counterterrorist Military
(6/7/02)
                                  Aircraft Engine Maintenance         Operations (CLASSIFIED)
A-2002-0441-FFP Trucks            Support Operations (4/29/02)        (6/11/02)
Refurbished by Depot Support
                                  F2002-0006-C06200 Material          D-2002-111 Readiness of
Activity Far East for Distribu-
                                  Management Transition               Intelligence, Surveillance, and
tion to Foreign Countries
                                  (4/29/02)                           Reconnaissance Aircraft
(6/18/02)
                                                                      (CLASSIFIED) (6/20/02)
A-2002-0443-AMA Executing         F2002-0005-C06100 Air
                                  National Guard Small Arms           Army Audit Agency
the Army's Recapitalization
Program (6/20/02)                 Management (5/20/02)                A-2002-0486-IME Unit-Level
                                                                      Training for Chemical and
A-2002-0460-IMU Followup          F2002-0006-C06100
                                                                      Biological Defense (7/10/02)
Audit of the Reserve Storage      Equipment Additive and
Activity (6/28/02)                Replacement Program                 A-2002-0517-IME Chemical
                                  Requirements (6/17/02)              and Biological Support for
A-2002-0445-AMW                                                       Forward Stationed DA Civilians
Accounting for Real and           F2002-0007-C06100 Air Force
                                                                      and Contractors (8/2/02)
Personal Property (7/1/02)        Repair Enhancement Program
                                  (6/20/02)                           A-2002-0555-FFF Advanced
A-2002-0476-IMU                                                       Individual Training Courses
Ammunition Accountability--       F2002-0007-C06200 Antenna
                                                                      (9/16/02)
Reserve Storage Activity,         Preventive Maintenance
Miesau (7/12/02)                  Inspections (7/8/02)                Naval Audit Service
                                  F2002-0008-C06200 Asset             N2002-0038 Risk Assessment
A-2002-0530-AMI Army
                                  Variance (9/18/02)                  of the Navy's Strategic Sourcing
Cover Program, Site E (8/2/02)
                                                                      Program (4/8/02)
A-2002-0444-AMA                   F2002-0009-C06100 Air
                                  Mobility Command Forward            N2002-0050 Marine Corps AV-
Formulating the Army's Recapi-
                                  Supply System (9/26/02)             8B Harrier Readiness Reporting
talization Program (8/30/02)
                                                                      (5/22/02)
Naval Audit Service
                                                                      N2002-0054 Marine Corps
N2002-0049 Contractor                                                 Equipment Deployment
Logistics Support at the Naval                                        Planning (6/12/02)
Sea Systems Command
(5/17/02)                                                             N2002-0056 Marine Corps AH-
                                                                      1 Cobra and UH-1N Huey
                                                                      Readiness Reporting (6/19/02)



                                                42
Semiannual Report to the Congress                                                          Appendix B


N2002-0058 Opportunities to         D-2002-103 Certification of the   N2002-0048 Improvements to
Improve the Marine Corps Total      Reserve Component Automa-         the Visibility and Management
Force System (6/25/02)              tion System (6/14/02)             of Operating and Support Costs
                                                                      System (5/15/02)
N2002-0061 Business Risk            D-2002-113 Controls Over the
Assessment of Navy and Marine       Computerized Accounts Payable     N2002-0071 The Compliance
Corps Presence Located Outside      System at Defense Finance and     Process for the Navy’s Standard
the Continental United States       Accounting Service Columbus       Labor Data Collection and
(7/17/02)                           (6/21/02)                         Distribution Application System
                                                                      (8/21/02)
N2002-0066 Key Navy P-3             D-2002-119 Defense Hotline
Aircrew Positions (8/5/02)          Allegations Regarding the         Air Force Audit Agency
                                    Military Airspace Management      F2002-0005-B05400 Air Force
N2002-0073 Marine Corps             System (6/25/02)
Ground Forces Training                                                Equipment Management System
(8/26/02)                           D-2002-123 Acquisition and        Systems Controls (4/8/02)
                                    Clinger-Cohen Act Certification   F2002-0010-B05400 Tempo
N2002-0079 Readiness                of the Defense Integrated
Training Status Reporting for                                         Management and Tracking
                                    Military Human Resources          System Interface Controls
1st Battalion, 3rd Marines          System (6/28/02)
(CLASSIFIED) (9/26/02)                                                (8/13/02)
                                    D-2002-124 Allegations to the
N2002-0080 Navy Submarine           Defense Hotline on the
Readiness Reporting (9/27/02)       Management of the Defense         INFRASTRUCTURE
                                    Travel System (7/1/02)            AND ENVIRONMENT
Air Force Audit Agency
F2002-0010-B05800 Personnel         D-2002-133 Global Command
                                    and Control System Readiness      IG, DoD
Deployment Planning (FOR
OFFICIAL USE ONLY)                  Assessment System Output Tool     D-2002-077 Bulk Fuel Infra-
(6/20/02)                           (7/24/02)                         structure Military Construction
                                                                      Project Review Process: Air
                                    D-2002-146 The Defense            Force (4/3/02)
INFORMATION                         Advanced Research Projects
                                    Agency’s Transition of            D-2002-085 Audit Coverage of
TECHNOLOGY                          Advanced Information Tech-        DoD Energy Management
MANAGEMENT                          nology Programs (9/11/02)         (5/1/02)
                                    Army Audit Agency                 D-2002-089 Department of
IG DoD                              A-2002-0461-FFF Computer-         Defense Policies and Procedures
D-2002-081 The Preventive           Based Training for Information    to Implement the Rural
Health Care Application and an      Technology (3/29/02)              Development Act of 1972
Associated Upgrade (4/12/02)                                          (5/10/02)
                                    A-2002-0600-AMI Information
D-2002-084 Guidance for the         Technology Acquisition Work-      D-2002-122 DoD
Global Command and Control          load Management, Technology       Environmental Community
System Common Operational           Application Office (9/27/02)      Involvement Programs at Test
Picture (FOR OFFICIAL USE                                             and Training Ranges (6/28/02)
ONLY) (5/1/02)                      Naval Audit Service
                                                                      D-2002-125 General and Flag
                                    N2002-0047 Department of the      Officer Quarters at Pearl Harbor,
D-2002-086 Defense Hotline          Navy Status of Resources and
Allegations on the Procurement                                        Hawaii (7/1/02)
                                    Training System (5/8/02)
of a Facilities Maintenance
Management System (5/7/02)




                                                  43
Appendix B                                                         Semiannual Report to the Congress


D-2002-137 Bulk Fuel Infra-                                           D-2002-148 Defense Informa-
structure Military Construction   INFORMATION                         tion Systems Agency Defense
and Maintenance, Repair, and      SECURITY                            Enterprise Computing Center St.
Environmental Project Review                                          Louis Information Security
Process: Navy (8/9/02)                                                Program (FOR OFFICIAL USE
                                  IG DoD                              ONLY) (9/17/02)
Army Audit Agency
                                  D-2002-093 Government               D-2002-151 Implementation of
A-2002-0289-IMO Energy            Information Security Reform
Savings Performance Contracts                                         Government Information
                                  Act Implementation: Noncom-         Security Reform by the Defense
(5/23/02)                         batant Evacuation Operations        Finance and Accounting Service
                                  Tracking System (5/23/02)           Electronic Funds Transfer
A-2002-0395-IMO Electrical
Distribution System Contract      D-2002-098 Army Web Site            Computerized Accounts Payable
(5/23/02)                         Administration, Policies, and       System Bridge System (FOR
                                  Practices (6/5/02)                  OFFICIAL USE ONLY)
A-2002-0382-IME                                                       (9/19/02)
Management of Chemical            D-2002-108 Standard Procure-
Stockpile Sites (5/24/02)         ment System Certification and       Army Audit Agency
                                  Accreditation Process (FOR          A-2002-0540-FFF Government
A-2002-0288-IMO Energy            OFFICIAL USE ONLY)                  Information Security Reform
Savings Performance Contracts     (6/19/02)                           Act Requirement (8/30/02)
(7/24/02)
                                  D-2002-129 DoD Web Site             A-2002-0587-FFB The Army’s
A-2002-0527-IMO Privatiza-        Administration, Policies, and       Implementation of the Govern-
tion of Family Housing (8/9/02)   Practices (7/19/02)                 ment Information Security
                                                                      Reform Act – Lessons Learned
A-2002-0500-IME Projected         D-2002-132 Implementation of        (9/30/02)
Supply and Use of Halon 1301      Government Information
(8/16/02)                         Security Reform by the Defense      Air Force Audit Agency
                                  Finance and Accounting Service      F2002-0002-C06600 Controls
A-2002-0578-IME
                                  for the Civilian Personnel          Over Classified Computer
Management of the Impact Area
                                  Resource Reporting Systems          Systems (FOR OFFICIAL USE
Groundwater Study Program,
                                  (FOR OFFICIAL USE ONLY)             ONLY) (4/1/02)
Camp Edwards, Massachusetts
                                  (7/23/02)
(9/23/02)
                                                                      F2002-0003-C06600
                                  D-2002-134 Implementation of        Certification and Accreditation
Air Force Audit Agency
                                  Government Information              of Air Force Systems (4/22/02)
F2002-0005-B05200 Followup        Security Reform by the Defense
Audit, Installation Support of    Finance and Accounting Service
the Environmental Restoration     Nonappropriated Fund Informa-
Program (4/23/02)
                                                                      HUMAN CAPITAL
                                  tion Standard System (FOR
                                  OFFICIAL USE ONLY)
F2002-0006-B05200 Military        (7/24/02)                           IG DoD
Family Housing Privatization -
Kirtland AFB (FOR OFFICIAL        D-2002-135 User                     D-2002-101 Compensation
USE ONLY) (6/14/02)               Authentication Protection at        Policies and Procedures for
                                  Central Design Activities           Selected Nonappropriated Fund
F2002-0007-B05200 Family          (7/29/02)                           Childcare Providers (6/10/02)
Housing Requirements
Determination (6/19/02)           D-2002-142 Government               D-2002-144 Civilian Personnel
                                  Information Security Reform         Processing by Regional Service
                                  Act Implementation: Defense         Centers That Service Multiple
                                  Security Assistance Manage-         DoD Agencies (9/11/02)
                                  ment System (8/30/02)



                                                 44
Semiannual Report to the Congress                                                        Appendix B


Army Audit Agency                   A-2002-054-FFP Resources         D-2002-6-006 Summary of
A-2002-0422-AMI Army                Sharing Agreement with the       Risk Assessment Methodologies
Foreign Language Program            Department of Veterans Affairs   (5/6/02)
(6/12/02)                           (9/9/02)
                                                                     D-2002-6-007 Defense
A-2002-0585-FFF Manning                                              Contract Audit Agency Quality
Priorities for Army Transforma-     OTHER SECURITY                   Assurance Review of Internal
                                                                     Control System Audits (8/6/02)
tion (9/30/02)                      CONCERNS
Naval Audit Service                                                  D-2002-6-008 Quality Control
                                    IG DoD                           System at U.S. Special Opera-
N2002-0041 Improper Use of                                           tions Command Inspector
Boot Camp Recruits Contributes      D-2002-121 Security: Controls    General Audit Division
to Fleet Understaffing (4/19/02)    Over Biological Agents           (8/21/02)
                                    (CLASSIFIED) (6/27/02)
Air Force Audit Agency                                               D-2002-6-009 The Army
                                    D-2002-138 Allegations           Contract Audit Followup
F2002-0007-B05100 Civilian
                                    Concerning the Management        Process (9/18/02)
Firefighter Pay and Leave
                                    and Business Practices of the
(6/17/02)
                                    Defense Security Service         Naval Audit Service
F2002-0011-B05800 Air               (8/9/02)
                                                                     N2002-0040 Quality Control
Reserve and Guard Intelligence                                       Review of Report Marking
                                    Air Force Audit Agency
Force Support (8/16/02)                                              (4/17/02)
                                    F2002-0012-B05800
                                    Antiterrorism/Force Protection   N2002-0053 Quality Control
HEALTH CARE                         Program (FOR OFFICIAL USE        Review of Selective
                                    ONLY) (8/20/02)                  Referencing (6/7/02)
IG DoD                                                               N2002-0059 Quality Assurance
D-2002-087 DoD Medical              COOPERATIVE                      Review of the Local Audit
Support to the Federal Response                                      Function at the Navy Exchange
                                    THREAT REDUCTION                 Service Command (7/1/02)
Plan (5/10/02)

D-2002-094 Pricing of Pharma-       IG DoD                           N2002-0063 Quality Control
ceutical Items in the Medical                                        Review of Audit Report N2001-
                                    D-2002-154 Cooperative Threat    0030: “Management of the
Prime Vendor Program
                                    Reduction Program Liquid         Navy’s Individual Ready
(5/23/02)
                                    Propellant Disposition Project   Reserve Program” (7/30/02)
D-2002-153 Reprocessed              (9/30/02)
Medical Single-Use Devices in                                        N2002-0064 Peer Review of the
DoD (9/30/02)                                                        Air Force Audit Agency
                                    AUDIT OVERSIGHT                  (7/30/02)
Army Audit Agency                   REVIEWS
                                                                     N2002-0065 Quality Control
A-2002-0397-FFP DoD/                                                 Review of Audit Report N2001-
Veterans Affairs Joint Physical     IG DoD                           0024, “Ordnance Inventory
Examination Program (6/28/02)                                        Statistical Sampling
                                    D-2002-6-005 Defense
A-2002-0488-IMU Child Care          Contract Audit Agency            Methodology” (7/31/02)
Operations (7/24/02)                Regional Quality Assurance       N2002-0072 Quality Assurance
                                    Review of the Incurred Cost      Review of the Local Audit
                                    Sampling Initiative (4/16/02)    Function at Selected Chief of
                                                                     Naval Education and Training
                                                                     Activities (8/22/02)



                                                   45
Appendix B                                        Semiannual Report to the Congress




             This page left blank intentionally




                            46
Semiannual Report to the Congress                                                                      Appendix C


                                      APPENDIX C*
                       OIG DoD AUDIT REPORTS ISSUED CONTAINING
                      QUANTIFIABLE POTENTIAL MONETARY BENEFITS



                                                                         Potential Monetary Benefits

                                                                         Questioned             Funds Put to
                   Audit Reports Issued                                    Costs1                Better Use

 D-2002-088 Acquisition of the Joint Service Lightweight                       N/A                $57,000,000
 Standoff Chemical Agent Detector (5/10/02)
 D-2002-091 Accountability and Control of Materiel at the                      N/A                  90,000,000
 Corpus Christi Army Depot (5/21/02)
 D-2002-104 Military Traffic Management Command                                N/A                     463,157
 Handling of Container Detention Charges (6/12/02)
 D-2002-109 Army Claims Service Military                                       N/A                   2,800,000
 Interdepartmental Purchase Requests (6/19/02)
 D-2002-110 Policies and Procedures for Military                               N/A                   5,700,000
 Interdepartmental Purchase Requests at Washington
 Headquarters Services (6/19/02)
 D-2002-112 Industrial Prime Vendor Program at the Air                         N/A                   9,045,847
 Force Air Logistics Center (6/20/02)
 D-2002-131 Terminal Items Managed by the Defense                              N/A                  69,000,000
 Logistics Agency (7/22/02)
 D-2002-136 Defense Logistics Agency Aviation                                  N/A                111,600,000
 Investment Strategy Program (7/31/02)
 Totals                                                                             0            $345,609,004
 1There   were no OIG audit reports during the period involving questioned costs.

*Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
 Section 5(a)(6) (see Appendix B).




                                                         47
Appendix C                                        Semiannual Report to the Congress




             This page left blank intentionally




                               48
Semiannual Report to the Congress                                                                       Appendix D


                                             APPENDIX D*
                                         FOLLOWUP ACTIVITIES



       DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS WITH
           RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                              ($ in thousands)

                                                                                                    Funds Put
                                   Status                                           Number           to Better
                                                                                                       Use1
 A. For which no management decision had been made by the                                 28          $43,0002
         beginning of the reporting period.
 B. Which were issued during the reporting period.                                        76           345,609
      Subtotals (A+B)                                                                    104           388,609
 C. For which a management decision was made during the reporting                         80           115,209
         period.
      (i)      dollar value of recommendations that were agreed to by
               management
               - based on proposed management action                                                      5,700
               - based on proposed legislative action
      (ii)     dollar value of recommendations that were not agreed to by                             109,5093
               management
 D. For which no management decision has been made by the end of                          24           273,400
         the reporting period.

      Reports for which no management decision was made within 6
            months of issue (as of March 31, 2002).                                        0                      0
 1There were no OIG DoD audit reports issued during the period involving “disallowed costs.”
 2Previously
              claimed potential monetary benefits of $215,000 were subsequently withdrawn.
 3On 5 audit reports with a total of potential funds put to better use of $109.5 million, management has agreed
  to take the recommended actions, but the amount of agreed monetary benefits cannot be determined until
  those actions are completed.


*Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
 Section 5(a)(8)(9)&(10).




                                                        49
Appendix D                                        Semiannual Report to the Congress




             This page left blank intentionally




                            50
Semiannual Report to the Congress                                                                        Appendix E


                                             APPENDIX E
                                   CONTRACT AUDIT REPORTS ISSUED1
                                            ($ in millions)



                                          Reports          Amounts             Questioned          Funds Put to
        Type of Audit2
                                          Issued*          Examined              Costs3             Better Use

    Incurred Costs                             16,043         $48,987.7              $689.4               $236.74
    Forward Pricing                             5,016         $77,046.6                    --           $2,200.95
    Proposals
    Cost Accounting                             1,301            $378.7               $71.4                      --
    Standards

    Defective Pricing                             430                 6/              $35.7                      --

    Totals                                     22,790        $126,413.0              $796.5              $2,437.6
    1This  schedule represents Defense Contract Audit Agency (DCAA) contract audit reports issued during the
     6 months ended September 30, 2002. Both “Questioned Costs” and “Funds Put to Better Use” represent
     potential cost savings. Because of limited time between availability of management information system data
     and legislative reporting requirements, there is minimal opportunity for the DCAA to verify the accuracy of
     reported data. Accordingly, submitted data is subject to change based on subsequent DCAA authentication.
    2This schedule represents audits perfomed by DCAA summarized into four principal categories, which are

     defined as:
          Incurred Costs - Audits of direct and indirect costs charged to Government contracts to determine that
     the costs are reasonable, allocable, and allowable as prescribed by the Federal Acquisition Regulation,
     Defense Federal Acquisition Regulation, and provisions of the contract. Also included under incurred cost
     audits are Operations Audits, which evaluate a contractor’s operations and management practices to identify
     opportunities for increased efficiency and economy; and Special Audits, which include audits of
     terminations and claims.
            Forward Pricing Proposals - Audits of estimated future costs of proposed contract prices, proposed
     contract change orders, costs for redeterminable fixed-price contracts, and costs incurred but not yet covered
     by definitized contracts.
            Cost Accounting Standards - A review of a contractor’s cost impact statement required due to changes
     to disclosed practices, failure to consistently follow a disclosed or established cost accounting practice, or
     noncompliance with a CAS regulation.
            Defective Pricing - A review to determine whether contracts are based on current, complete, and
     accurate cost or pricing data (the Truth in Negotiations Act).
    3
      Questioned costs represent costs that DCAA has questioned because they do not comply with rules,
     regulations, laws, and/or contractual terms.
    4Represents recommendations associated with Operations Audits where DCAA has presented to a contractor

     that funds could be used more effectively if management took action to implement cost reduction
     recommendations.
    5
      Represents potential cost reductions that may be realized during contract negotiations.
    6Defective pricing dollars examined are not reported because the original value was included in the audits

     associated with the original forward pricing proposals.

   *Applies to Army Corps of Engineers and DCAA only.




                                                        51
Appendix E                                                      Semiannual Report to the Congress




                Waivers of Advisory and Assistance Service Contracts

  A review is made of each waiver granted by the Department for advisory and assistance services
  contracts related to testing support. This review is required by Section 802, Defense
  Authorization Act for Fiscal Year 1990.

  The Department made no waivers during the period and therefore, no reviews were made by
  the OIG.




                                               52
    If you suspect Fraud, Waste, Abuse, or Mismanagement in
         the Department of Defense, please contact us at:
                      Hotline@dodig.osd.mil
                                or
                      www.dodig.osd.mil/hotline
                                or call:
                             800-424-9098




The Hotline is available 24 hours per day. The caller can remain anonymous.
             If you prefer, you may send written complaints to:

                      Office of the Inspector General
                          Department of Defense
                                 Room 929
                           400 Army Navy Drive
                      Arlington, Virginia 22202-4704
